<html>
<title> - IRAN: REALITY, OPTIONS, AND CONSEQUENCES. PART I</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 IRAN: REALITY, OPTIONS, AND CONSEQUENCES. PART I--IRANIAN PEOPLE AND 
                               ATTITUDES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2007

                               __________

                           Serial No. 110-127

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
47-589 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 30, 2007.................................     1
Statement of:
    Ballen, Ken, president, Terror Free Tomorrow.................    10
    Katzman, Dr. Kenneth, Specialist in Middle Eastern Affairs, 
      Foreign Affairs, Defense, and Trade Division, Congressional 
      Research Service...........................................    74
    Sadjadpour, Karim, associate, Carnegie Endowment for 
      International Peace........................................    63
Letters, statements, etc., submitted for the record by:
    Ballen, Ken, president, Terror Free Tomorrow, prepared 
      statement of...............................................    12
    Katzman, Dr. Kenneth, Specialist in Middle Eastern Affairs, 
      Foreign Affairs, Defense, and Trade Division, Congressional 
      Research Service, prepared statement of....................    77
    Sadjadpour, Karim, associate, Carnegie Endowment for 
      International Peace, prepared statement of.................    66
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


 IRAN: REALITY, OPTIONS, AND CONSEQUENCES. PART I--IRANIAN PEOPLE AND 
                               ATTITUDES

                              ----------                              


                       TUESDAY, OCTOBER 30, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2247, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Higgins, Yarmuth, 
Braley, McCollum, Van Hollen, Hodes, Welch, Shays, and Platts.
    Staff present: Dave Turk, staff director; Andrew Su and 
Andy Wright, professional staff members; David Hake, clerk; 
Janice Spector and Christopher Bright, minority professional 
staff members; Nick Palarino, minority senior investigator and 
policy adviser; and Todd Greenwood, minority research 
assistant.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs, the hearing entitled, 
``Iran: Reality, Options, and Consequences. Part I--Iranian 
People and Attitudes'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements.
    Without objection, it is so ordered.
    Again, I ask unanimous consent the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. And without objection, that is also ordered.
    Good morning and welcome to everyone here today. I 
appreciate our witnesses going through the long lines that I 
understand are outside in order to be able to get here. This I 
think is an important topic. And this first hearing will set 
the tone and give us good, substantial background information 
for the hearings to come.
    Two weeks ago, the President of the United States made the 
following statement, ``If you're interested in avoiding World 
War III, it seems like you ought to be interested in preventing 
them from having the knowledge necessary to make a nuclear 
weapon.''
    A few days later, the Vice President followed up this line 
with his line in the sand, ``We will not allow Iran to have a 
nuclear weapon.'' He then elaborated, ``Our country and the 
entire international community cannot stand by as a terror-
supporting state fulfills its most aggressive ambitions.''
    Compare this statement to one that Vice-President Cheney 
made just 2 months before the U.S. invasion of Iraq, ``We will 
not permit a brutal dictator with ties to terror and a record 
of feckless aggression to dominate the Middle East and to 
threaten the United States.''
    The administration's rhetoric on Iran is becoming more 
strident and inflammatory. The temperature is rapidly rising. 
And at the same time, as was the case with the buildup to the 
Iraq war, much of the decisionmaking is being made in the 
utmost of secrecy.
    My hope is this administration has learned lessons over 
nearly 7 years in office, lessons about truth, humility, and 
the importance of fully leveling with the American people. It 
is my hope that any administration, when faced with such an 
important foreign policy challenge as Iran, will take a 
calculated, well-thought out approach with a clear 
understanding of our long-term security and strategic 
interests, the varying policy options and their consequences. 
We must also be aware of what we don't know and the law of 
unintended consequences.
    Congress should also have learned some lessons over the 
past 7 years, most importantly about the need for vigorous 
congressional oversight. Our Constitution requires and demands 
that Congress ask the tough questions, questions about whether 
all other options have been exhausted, about the consequences 
and true costs of war, and whether the President is basing his 
decisions on an accurate picture of reality. ``Trust us'' 
should never be good enough under our constitutional separation 
of powers, and it should certainly not be good enough now.
    Beginning today, the Subcommittee on National Security and 
Foreign Affairs initiates a series of robust, deliberative, and 
focused oversight hearings on a topic that has long been 
overdue for congressional examination--U.S. policy toward Iran. 
Our constitutional responsibility demands nothing less.
    As our series hearing entitled, ``Iran: Reality, Options, 
and Consequences,'' suggests, we will fully explore the many 
options for dealing with Iran and the consequences of those 
options. But let's not put the cart before the horse. First, 
let's learn something about Iranians, something we know far too 
little about.
    Fareed Zakaria recently put it this way: ``We are on a path 
to irreversible confrontation with a country we know almost 
nothing about. The U.S. Government has had no diplomats in Iran 
for almost 30 years. American officials have barely met with 
any senior Iranian politicians or officials. We have no contact 
with the country's vibrant civil society. Iran is a black hole 
to us--just as Iraq had become in 2003.''
    The reality is that very few people in Washington 
understand Iran and that many generalize and oversimplify a 
complex society of 70 million people. We have little to no 
understanding of the attitudes and opinions of ordinary 
Iranians. We don't know what the word is on the so-called 
``Iranian street.'' We don't fully appreciate Iran's rich 
history and how it is ingrained in the Iranian psyche, or about 
how the Islamic Revolution of 1979 intimately shaped the 
behavior and livelihoods of a generation of Iranian youth, 
women, and politicians.
    The United States has continued to isolate Iran through 
unilateral and multilateral economic and trade sanctions. 
Outside of a few people-to-people exchanges and limited 
opportunities for travel by academics, journalists, and 
Iranian-Americans, there has been little direct contact with 
Iran.
    So before we start speculating about the prospects for 
diplomacy or regime change, or the consequences of a U.S. 
military attack, all of which will be discussed at later 
subsequent hearings of this subcommittee, let's take a step 
back and try to understand who the Iranians really are. This 
fundamental, common-sense approach, unfortunately, was largely 
missing in the public dialog leading up to the Iraq war. It 
will not be missing this time.
    We need to ask several basic questions. What makes Iranians 
tick? What drives and motivates their behavior? Do Iranians 
want democracy? Are they resoundingly anti-American, or are 
there opportunities for improvements in our relationship? How 
can we reintegrate Iran into the global economy and get them to 
adhere to international human rights standards? And, given our 
lack of connection over the last 30 years, what don't we know? 
And where are our blind spots?
    By understanding Iranians and building our knowledge of the 
intricacies in our fractured relationship, the subcommittee 
will be able to conduct our constitutionally mandated 
oversight, to find out if the current administration has 
thought through all of these issues adequately and thoroughly, 
and to ask tough questions that get to the heart of the myriad 
of issues involved.
    With the support of the subcommittee members on both sides 
of the aisle, I am pleased to embark on this series of Iran 
hearings.
    And I now yield to the ranking member of the subcommittee, 
Mr. Shays.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T7589.001
    
    [GRAPHIC] [TIFF OMITTED] T7589.002
    
    [GRAPHIC] [TIFF OMITTED] T7589.003
    
    Mr. Shays. Thank you, Mr. Chairman. I congratulate you for 
embarking on this series of hearings about Iran. These hearings 
will further our knowledge about a country that promotes and 
supports terrorism. The American public must understand that if 
unchecked, Iran poses a national security threat not only to 
the United States and our allies, but to the entire world. We 
must never forget that Iran supports terrorists, wants to 
become a nuclear power, and has threatened other nations with 
annihilation.
    Given its location, Iran is in a unique position to 
influence control over the energy-rich Middle East. As we 
listen to the comments of the Bush administration and the 
Iranian leadership about what lies ahead for our two nations, I 
agree with you, Mr. Chairman, what is of fundamental importance 
is understanding the people, the politics, and the culture of 
the Iranian people. We have learned some hard lessons from our 
experience in Iraq about the absolute importance of 
understanding countries and their people, particularly those we 
are confronting.
    Our relationship with Iran is complex. Besides Cuba, Iran 
is the only country in the world with which the United States 
has had no sustained direct contact. In fact, we have had no 
significant connection with the Government of Iran since 1979, 
when Iranian students, with the approval of their government, 
strong-armed the embassy in Tehran, taking and holding 52 
American diplomats hostage for 444 days.
    The United States has designated Iran a state sponsor of 
terrorism. Three pressing problems override our relation with 
this nation: One, Iran's efforts to develop a nuclear weapon; 
two, Iran's ongoing involvement with and support for terrorist 
groups throughout the Middle East; and, three, Iran's sustained 
and increasing support for militia groups in Iraq.
    The United States is deeply concerned about Iran's 
connections to numerous terrorist groups threatening the United 
States and our allies around the globe. Iran is providing 
weapons, funding, and guidance to Hezbollah, which threatens 
Lebanon and Israel. Iran also provides significant support for 
Palestinian terrorist groups such as Hamas and the Palestinian 
Islamic Jihad, which threatens lasting peace and security in 
that region.
    The United States is deeply concerned about Iran's race to 
possess a nuclear weapon. A nuclear armed Iran would pose an 
incalculable risk to its Arab neighbors, to the countries of 
the greater Middle East, and to Europe. This would be 
unthinkable for all who value security and peace.
    What we must ask ourselves is whether it is better to 
isolate Iran or to engage its leaders in discussion. While we 
must not have 535 Secretaries of State, Congress should take a 
stronger role in pressing the administration for diplomatic 
dialog and discourse with Iran.
    This administration must understand that even though Iran 
is a rogue state, it is still a country with enormous influence 
in the Middle East, which we have to deal with one way or the 
other. It is time for us to start talking with Iran diplomat to 
diplomat, politician to politician, and person to person.
    I look forward to today's hearings as a positive step in 
this direction, and we welcome all our witnesses today, and 
especially welcome Dr. Kenneth Katzman, who agreed to testify 
only 4 days ago. And I would like to again thank you, Mr. 
Chairman, and say to our witnesses I have to be going before 
the Appropriations Committee on a particular bill in my 
district, and I will hustle back as soon as I make my testimony 
there.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Shays. We are going to have a 
brief statement from some of the Members who expressed an 
interest, despite our earlier comments on that. And Mr. 
Higgins, the Chair recognizes you for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman. I just want to say I 
don't have a written statement, but I think this is 
particularly important for a lot of reasons. One is there is 
new war talk in the air. When the President begins to reference 
World War III with specific reference to Iran, which is flanked 
incidentally by Afghanistan and Pakistan, that is troubling. It 
is troubling because I think it reeks of irresponsibility, it 
is warmongering, and it creates a potentially further 
destabilizing influence in a region that is very important to 
our strategic interests.
    What is even more important is the results of your surveys 
about the Iranian people. My understanding is the Iranian 
people are relatively young, average age approximately 26. 
Seventy percent of the population is under the age of 30. The 
government lacks legitimacy in the eyes of the governed. 
Corruption is endemic, and employment is chronic. Most of the 
Iranian population are very pro-Western.
    My concern is with a lot of war talk in the air, perhaps 
air strikes on some 18 to 30 nuclear-related facilities that 
happen to be interspersed with civilian populations, that we 
have to be very, very careful, obviously, before we take any 
kind of military action. Strongly engaging diplomatically I 
think is important, given the precarious nature of this regime.
    I think our interests are profound in that region, profound 
in that country, and we have an obligation to explore not only 
the face of Iran, which happens to be a President Ahmadinejad, 
which his statements are very provocative, his goal I think is 
to become the face of extremism in the Middle East, and I think 
he has succeeded in that regard, but to understand there is a 
population of 70 million people, that is important to our 
strategic interests in that area as well.
    So I look forward to your testimony, and I thank you for 
being here.
    Mr. Tierney. Thank you, Mr. Higgins. Ms. McCollum is 
recognized for 5 minutes.
    Ms. McCollum. Thank you, Chairman Tierney. Thank you very 
much for holding this hearing. I expect to be learning a lot 
from our testifiers. With the talk of, as Congressman Higgins 
just pointed out, of President Bush talking about World War 
III, Vice-President Cheney issuing ultimatums without a robust 
discussion in the Congress, I think it makes sense that this 
committee, with the charge that we have with government 
oversight, show that we are going to take the prudent, measured 
look at what is the situation in Iran, but more importantly 
understand Iran so that we can engage with the families. Not 
necessarily engage always with the extreme talk that we hear 
from Iran, but to really understand what is going on with the 
typical Iranian family and what they would like to see their 
government do.
    As I go back home and talk to the families in my district 
and listen carefully with what they want this Congress to do, 
they clearly want engagement. They clearly want dialog, they 
clearly want the heated rhetoric to cease and for engagement 
and diplomacy to take effect.
    So Mr. Chair, I think this hearing is extremely important. 
And as it was just stated, when the number of youth far exceed 
the elders in a country, they have a different time reference 
as to their engagement with the United States. Many of them do 
not remember or probably don't even understand how some 
Americans continue to struggle with the kidnapping of our civil 
and State Department people in the embassy. They don't 
understand why we have even cutoff the way that we have dialog 
with Iran.
    So Mr. Chairman, I look forward to learning, I look forward 
to taking my responsibility to defend and protect the 
Constitution and the people here of the United States 
seriously. But I want to do it as an informed Member of 
Congress, not someone just going off sound bites on the evening 
news. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Ms. McCollum. If the witnesses 
would please stand. It is our practice here before the 
subcommittee to swear all witnesses before they testify. I 
would ask you to please raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you. The record will reflect that all 
witnesses answered in the affirmative. And we are going to have 
all of your written statements put in the record by unanimous 
consent. So if you could keep your testimony to 5, 10 minutes, 
we would appreciate that. It is usually 5, but we think it is a 
pretty deep subject so we would have some forbearance on that.
    I want to take a moment and introduce each of the witnesses 
before they testify rather than all three at the same time. Our 
first witness this morning is Ken Ballen, who is the president 
of Terror Free Tomorrow. He is here to share the results of the 
first nationwide survey of Iranians since 2002, and what 
lessons we can learn from that effort.
    Mr. Ballen has spent more than 20 years on the front lines 
of law enforcement, international relations, intelligence 
oversight, and congressional investigations. He has 
successfully prosecuted international terrorists. He has also 
prosecuted major figures in organized crime, international 
narcotics, and one of the first cases in the United States 
involving illegal financing for Middle Eastern terrorists. He 
has been counsel to the Iran-Contra Committee under Chairman 
Lee Hamilton, where he was the lead investigator. He was also 
chief counsel for the bipartisan Senate Special Investigative 
Committee, with Senator John McCain, and the chief counsel to 
the House Steering and Policy Committee for Speaker Foley, 
where he directed policy initiatives on crime prevention and 
security, intelligence oversight, and select national security 
matters to the U.S. House of Representatives.
    Mr. Ballen, we would be pleased to hear your testimony.

    STATEMENT OF KEN BALLEN, PRESIDENT, TERROR FREE TOMORROW

    Mr. Ballen. Thank you very much, Chairman Tierney, members 
of the subcommittee. I first would like to commend you, Mr. 
Chairman, for not only this series--I needed to turn that on--
thank you, Mr. Chairman. I first would like to commend you and 
the subcommittee not only for holding the oversight hearings on 
Iran, but for starting them in a place and on a topic that most 
people would not begin with, which is the people of Iran. That 
is absolutely the right place to start.
    Mr. Chairman, the Iranian people are speaking. The question 
before us now is are we listening? The United States has 
imposed new economic sanctions against Iran, but these 
sanctions or any other economic sanctions are likely to fail 
unless we also begin to address the Iranian people directly.
    President Reagan told us during the cold war that the 
average Soviet citizen was the best ally of the United States. 
President Reagan called that Soviet citizen Citizen Ivan, our 
friend. That is no less true with Iran today.
    Terror Free Tomorrow, an independent, nonprofit center on 
the importance of public opinion, partnered this summer with D3 
Systems, one of the most outstanding polling organizations for 
polling in closed societies and in troubled situations like 
Iraq and Afghanistan. They are here with me today. D3 Systems 
conducted a nationwide phone survey of Iran this past summer. 
And in an act of what could only be called everyday courage on 
the part of ordinary Iranians, over the phone--they didn't know 
who was on the other end of the line; could have been the 
government, could have been anyone--over the phone they told 
our pollsters that they reject the autocratic rule of the 
Supreme Leader, that they want normal relations with the 
outside world, and nuclear weapons are simply not their 
priority.
    As the Chair mentioned, this is the first uncensored, 
complete poll on these controversial issues since September 
2002. What was the result in 2002? Well, the result was the 
Iranian government put the pollsters in jail. Our results was 
that 79 percent surveyed across Iran said they want free 
elections and the opportunity to elect their leaders rather 
than have their leaders chosen for them. They want relations 
with the outside world, 68 percent with the United States. Only 
11 percent of Iranians said they favor their current system of 
unelected rule by the Supreme Leader.
    These results should not be treated as routine. They are 
not routine.
    About the same time that we conducted a poll of Iran, we 
conducted a similar phone survey of Syria, another closed 
society. And while three-quarters of Syrians said they favor 
better relations with the West, almost no one in our poll of 
Syria was willing to directly or indirectly come up to that 
line of criticizing the government or their Supreme Leader, 
Bashar Assad. But in Iran they did. Criticizing the Supreme 
Leader, as my distinguished colleague to my left here will tell 
you in Iran, is a line that one crosses at considerable 
personal risk. Yet in our poll the Iranian people are bravely 
and collectively crossing that line.
    The question before us is are we listening. I can tell you 
one party that is listening. It is the Iranian Government 
itself. Within a month of our poll they released a poll, 
refuting point by point the findings that we came up with.
    What accounts for the difference in results? Well, they 
didn't release their methodology and questions, so I don't 
really know. But I can tell you this, that perhaps when the 
government calls you up and says it is the government, you are 
going to get a very different answer. Or perhaps they went to 
the minority of Iranians, the demographic that do support them, 
because we did find that in our poll. We found that a very 
strong and committed minority, ranging from 11 percent, as I 
mentioned, in terms of keeping the current system of the 
unelected religious rule of the Supreme Leader, to almost a 
third in terms of certain policies of President Ahmadinejad do 
support the government. So you have a majority of people who 
don't, but you have a determined and committed minority who do.
    So where do we stand? What is the bottom line on all of 
this? On the one hand, we have the Iranian people expressing to 
us their true voice. On the other hand, we have the Iranian 
regime very busy expressing the voice of the people that it 
wants the rest of the world to hear. But the rest of the world 
is silent. Sanctions are imposed, military threats are made. 
The regime is talked to by some, it is shunned by others. And 
in all this debate no one is reaching out over the head of the 
regime to talk to the people themselves. The United States is 
not, nor are the Europeans. No one is.
    The irony of this situation that we find ourselves in is 
that the regime itself is very busy trying to represent the 
people and their will and to speak for them. But as much as 
they may try, the regime does not. The rest of the world, if it 
spoke to the priorities of the Iranian people, to their 
economic desires, to their desires for trade, to their desires 
for peaceful coexistence, to their desire for, yes, respect 
from other nations, the irony is if the United States did reach 
out, as we did during the cold war and delivered messages, a 
positive agenda directly to the people, we would find our most 
receptive audience to be inside Iran itself.
    Thank you, Mr. Chairman, and I am happy to answer any 
questions as to the details of the polls and our findings, 
which I avoided in my opening statements in the interests of 
time. And as I said, I am accompanied by D3, which can speak to 
methodology as well.
    [The prepared statement of Mr. Ballen follows:]

    [GRAPHIC] [TIFF OMITTED] T7589.004
    
    [GRAPHIC] [TIFF OMITTED] T7589.005
    
    [GRAPHIC] [TIFF OMITTED] T7589.006
    
    [GRAPHIC] [TIFF OMITTED] T7589.007
    
    [GRAPHIC] [TIFF OMITTED] T7589.008
    
    [GRAPHIC] [TIFF OMITTED] T7589.009
    
    [GRAPHIC] [TIFF OMITTED] T7589.010
    
    [GRAPHIC] [TIFF OMITTED] T7589.011
    
    [GRAPHIC] [TIFF OMITTED] T7589.012
    
    [GRAPHIC] [TIFF OMITTED] T7589.013
    
    [GRAPHIC] [TIFF OMITTED] T7589.014
    
    [GRAPHIC] [TIFF OMITTED] T7589.015
    
    [GRAPHIC] [TIFF OMITTED] T7589.016
    
    [GRAPHIC] [TIFF OMITTED] T7589.017
    
    [GRAPHIC] [TIFF OMITTED] T7589.018
    
    [GRAPHIC] [TIFF OMITTED] T7589.019
    
    [GRAPHIC] [TIFF OMITTED] T7589.020
    
    [GRAPHIC] [TIFF OMITTED] T7589.021
    
    [GRAPHIC] [TIFF OMITTED] T7589.022
    
    [GRAPHIC] [TIFF OMITTED] T7589.023
    
    [GRAPHIC] [TIFF OMITTED] T7589.024
    
    [GRAPHIC] [TIFF OMITTED] T7589.025
    
    [GRAPHIC] [TIFF OMITTED] T7589.026
    
    [GRAPHIC] [TIFF OMITTED] T7589.027
    
    [GRAPHIC] [TIFF OMITTED] T7589.028
    
    [GRAPHIC] [TIFF OMITTED] T7589.029
    
    [GRAPHIC] [TIFF OMITTED] T7589.030
    
    [GRAPHIC] [TIFF OMITTED] T7589.031
    
    [GRAPHIC] [TIFF OMITTED] T7589.032
    
    [GRAPHIC] [TIFF OMITTED] T7589.033
    
    [GRAPHIC] [TIFF OMITTED] T7589.034
    
    [GRAPHIC] [TIFF OMITTED] T7589.035
    
    [GRAPHIC] [TIFF OMITTED] T7589.036
    
    [GRAPHIC] [TIFF OMITTED] T7589.037
    
    [GRAPHIC] [TIFF OMITTED] T7589.038
    
    [GRAPHIC] [TIFF OMITTED] T7589.039
    
    [GRAPHIC] [TIFF OMITTED] T7589.040
    
    [GRAPHIC] [TIFF OMITTED] T7589.041
    
    [GRAPHIC] [TIFF OMITTED] T7589.042
    
    [GRAPHIC] [TIFF OMITTED] T7589.043
    
    [GRAPHIC] [TIFF OMITTED] T7589.044
    
    [GRAPHIC] [TIFF OMITTED] T7589.045
    
    [GRAPHIC] [TIFF OMITTED] T7589.046
    
    [GRAPHIC] [TIFF OMITTED] T7589.047
    
    [GRAPHIC] [TIFF OMITTED] T7589.048
    
    [GRAPHIC] [TIFF OMITTED] T7589.049
    
    [GRAPHIC] [TIFF OMITTED] T7589.050
    
    [GRAPHIC] [TIFF OMITTED] T7589.051
    
    [GRAPHIC] [TIFF OMITTED] T7589.052
    
    [GRAPHIC] [TIFF OMITTED] T7589.053
    
    [GRAPHIC] [TIFF OMITTED] T7589.054
    
    Mr. Tierney. Thank you, Mr. Ballen. I am sure we are all 
interested in statistics. And some people will want to question 
on that. Sometimes statistics, besides being difficult to say, 
is difficult to comprehend.
    Mr. Ballen. It is difficult to say, I can assure you, Mr. 
Chairman.
    Mr. Tierney. Thank you. And I am sure we will probably have 
plenty of questions on that. I appreciate your opening 
statement.
    Our next witness is Karim Sadjadpour. He is an associate at 
the Carnegie Endowment for International Peace, and he is 
bringing a wealth of experience from living and studying in 
Iran. Mr. Sadjadpour joined the Carnegie Institute after 4 
years as the chief Iran analyst at the International Crisis 
Group, based in Tehran and Washington, DC. He is a leading 
researcher on Iran. He has conducted dozens of interviews with 
senior Iranian officials and hundreds with Iranian 
intellectuals, clerics, dissidents, paramilitaries, 
businessmen, students, activists, and youth, among others.
    Mr. Sadjadpour was named a Young Global Leader by the World 
Economic Forum in Davos, Switzerland. And we are pleased to 
have your testimony today, sir.

 STATEMENT OF KARIM SADJADPOUR, ASSOCIATE, CARNEGIE ENDOWMENT 
                    FOR INTERNATIONAL PEACE

    Mr. Sadjadpour. Thank you very much, Mr. Chairman, members 
of the committee. It is really a privilege to be here, and I do 
commend you for expressing an interest in the views of the 
Iranian people.
    There is three, four points that I would like to make, and 
I would preface my talks by saying that anecdotally, my 
experiences in Iran very much coincide with a lot of the 
results of Mr. Ballen's survey. And I think it is one of the 
few surveys that I have seen that I have seen results which 
coincide with anecdotal experiences of myself and many others 
who have spent time in contemporary Iran.
    Discontent in Iran is very deep and very widespread. It is 
very difficult, whether you are traveling in Tehran or 
throughout the country, to find someone, regardless of age, 
gender, socioeconomic class, religiosity, who will say to you 
things are going well here, I am happy with the performance of 
the government and the clerics are doing a good job. It is 
extremely rare to be able to find someone who is able to say 
this.
    But we have a population which is increasingly politically 
disengaged these days. They participated overwhelmingly the 
last 8 years, from 1997, the election of the reformist 
President Mohammad Khatami, through 2005 in their elections. 
They elected Khatami with 80 percent turnout, they reelected 
him with 70 percent turn out. They elected a reform-minded 
parliament. But what they saw was their votes weren't able to 
affect change domestically. And increasingly what we have seen 
is the Iranian population as a result is disengaged. And I 
think this political disengagement is quite natural. As a 
friend of mine in Tehran told me, it is like going to the gym 
every day for 6 years and not losing 1 pound. Pretty soon you 
are going to stop exercising if you don't see results.
    The failure of the U.S. policies in Iraq have also had a 
role in the Iranian political participation. I think 
increasingly Iranians look next door and they say if the choice 
is between what we see in Iraq, democracy and carnage, and what 
we have now, which is authoritarianism and security, we will 
choose the latter. And this is a population which has 
experienced themselves an 8-year war with Iraq and is very 
allergic to any prospect of tumult and chaos and insecurity.
    Second point I want to make is about Ahmadinejad's 
election. We all know that he was elected with a very clear 
mandate. It wasn't to wipe Israel off the map or to deny the 
Holocaust. It was to improve the economy. He has really failed 
miserably in doing so. And I think if we are looking at 
Ahmadinejad's election as the glass being half full, we see for 
Iranians they see it actually does make a difference to 
participate in elections and it does make a difference who is 
the president of their country. During the Khatami era, many 
people believed that, again, participating in elections in Iran 
are an exercise in futility. But I think many people realize 
there is a difference between a president like Mohammad Khatami 
and President Ahmadinejad. And I think we will see in upcoming 
elections, March 2008 parliamentary elections and June 2009 
Presidential elections, Iranians going to the polls and 
electing more moderate, pragmatic leaders.
    The third point I want to make, and this is a very 
important point, that we should have no illusions that some 
type of abrupt, sudden change or sudden upheaval in Iran will 
be a change for the better. I would like to quote the great 
U.S. diplomat, retired U.S. diplomat John Limbert, who is a 
great scholar on Iran who was taken hostage in 1979 in the 
Iranian embassy for 444 days--in the U.S. Embassy in Tehran. 
And when he was reflecting on his experience, on his 1979 
experience, he wrote that what I learned from 1979 was that 
revolutions are not won by those who can write incisive op-ed 
pieces. They are won by those who are willing to go out on the 
streets and fight the type of battles and street battles that 
need to be waged to win these revolutions.
    And likewise in Iran these days I would agree entirely that 
we have a young population which is very much in favor of 
tolerance and democracy and co-existence. But the only two 
groups in Iran which are armed and organized are the 
Revolutionary Guards, which number about 125,000, and the 
bassij militia, which number about 2 million. So any type of 
sudden, abrupt upheaval in Iran unfortunately, I would argue, 
is not going to bring to power these liberal democrats, because 
by virtue of the fact they are liberal democrats they are not 
going to be willing to fight these street battles with these 
armed groups, who will be very much willing to fight these 
street battles.
    So I think we should be looking at transition in Iran as a 
longer term prospect or medium term prospect, not some type of 
sudden, abrupt upheaval.
    Last, I would argue that despite what we know about popular 
opinion, that the Iranian street is the most pro-American 
street in the Middle East, that there doesn't exist an inherent 
enmity toward Israel, that the Iranian street doesn't wake up 
in the morning thinking about enriching uranium and producing a 
nuclear weapons capability. Despite this fact, Iranian popular 
opinion, what we know is that Iranian popular opinion has 
little impact on Iranian foreign policy. Again, opinion polls, 
anecdotal evidence suggests that the Iranians overwhelmingly 
want to have a normalization of relations with the United 
States. Despite this, Iranian Government antagonism toward the 
United States is as great as it has ever been. Iranian support 
for Hezbollah and for Hamas is as great as it has ever been, 
and the Iranian defiance on the nuclear issue is as great as it 
has ever been, despite the fact that these issues don't 
particularly resonate on the Iranian street.
    I would close by saying when we think about challenges to 
U.S. foreign policy at the moment and over the coming years, 
for me five or six things come to mind. First, there is 
obviously Iraq. Second is nuclear proliferation. The third 
issue is terrorism. The fourth issue is energy security. And 
the fifth issue is Middle East peace, Arab-Israeli peace. And 
the sixth issue, if we want to be altruistic, is Afghanistan. 
And if you look at each of these six issues individually, the 
one common point which spans all of them is the fact that Iran 
is integral to each of these issues. It is integral to Iraq, to 
energy security, Arab-Israeli peace, terrorism, Afghanistan. 
And looking at it from that context, ignoring Iran is obviously 
not an option. Bombing Iran will exacerbate all of these issues 
which I just listed. And we are left with what Churchill called 
the least bad option, referring to democracy, and that is 
talking to Iran.
    So despite the fact that we have this population which is 
overwhelmingly in favor of a different type of government, a 
different type of relationship with the United States, we don't 
have the luxury of waiting for the Iranian people to be our 
interlocutors in Tehran. And I think we have to deal with the 
regime we have, not the regime we wish we had. Thank you.
    [The prepared statement of Mr. Sadjadpour follows:]

    [GRAPHIC] [TIFF OMITTED] T7589.055
    
    [GRAPHIC] [TIFF OMITTED] T7589.056
    
    [GRAPHIC] [TIFF OMITTED] T7589.057
    
    [GRAPHIC] [TIFF OMITTED] T7589.058
    
    [GRAPHIC] [TIFF OMITTED] T7589.059
    
    [GRAPHIC] [TIFF OMITTED] T7589.060
    
    [GRAPHIC] [TIFF OMITTED] T7589.061
    
    [GRAPHIC] [TIFF OMITTED] T7589.062
    
    Mr. Tierney. Thank you very much. We appreciate your 
testimony.
    Dr. Kenneth Katzman is the Middle East Specialist with the 
Congressional Research Service here in Washington, DC. He 
served in government and the private sector as an analyst in 
Persian Gulf affairs, with special emphasis on Iran and Iraq. 
In his current position, he analyzes U.S. policy and 
legislation on the Persian Gulf region for Members of Congress 
and their staffs. He has written numerous articles in various 
outside publications, including a book entitled, ``The Warriors 
of Islam: Iran's Revolutionary Guard.''
    Doctor, we are pleased to hear your testimony today.

STATEMENT OF DR. KENNETH KATZMAN, SPECIALIST IN MIDDLE EASTERN 
    AFFAIRS, FOREIGN AFFAIRS, DEFENSE, AND TRADE DIVISION, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Katzman. Thank you very much. I would like to thank the 
committee for asking me to appear today on the issue of Iranian 
public opinion and translation into Iranian policy.
    I would note that my official responsibilities at CRS 
include analyzing Iranian politics, U.S. policy toward Iran, 
Iran's strategic capabilities, Iran's economy, social and human 
rights situation. I do not have specific expertise in polling 
data or methodology of specific polls. My experience has been, 
in watching Iran over 20 years, that Iran's political and 
social attitudes are extremely opaque and difficult to gauge. 
It is important, I think, to try to correlate assessments of 
Iranian public opinion with known political events and 
outcomes, such as election results, removal or appointment of 
cabinet ministers, negotiators, others, demonstrations, 
indicators of unrest, or similar events.
    The poll that was cited would appear to be consistent, that 
the Iranian public is relatively pro-American, would appear to 
be consistent with observed events such as the candlelight 
vigils held by thousands of Iranians the night of the September 
11, 2001 attacks in the United States. The Iranian people, as 
Karim mentioned, do not hold the United States responsible for 
maintaining the Iranian regime in power because the United 
States and Iran have been estranged since the 1979 Islamic 
revolution.
    The Iranian public attitude toward the United States is 
often contrasted with attitudes in such U.S. allies as Egypt, 
with which the United States is an ally. Egyptian opponents of 
the government view the United States as cooperating in the 
official oppression by the Egyptian government, for example. 
Other observable events show that the Iranian people are 
discontented with their regime and system of government. We 
have had repeated series of demonstrations. President 
Ahmadinejad in fact has faced student unrest. He has been 
shouted down, stickers and posters denouncing him as a 
dictator, and various indicators. We have had labor unrest. We 
have had the imprisonment of labor leaders.
    What is interesting, however, is we cannot really predict 
from polls or others when unrest is going to boil over. For 
example, there were few objective indicators of public opinion 
that showed unrest was about to boil over in July 1999, when we 
had the student unrests. Mohammad Khatami, the reformist, was 
in power then. And the thinking of most experts was that the 
Iranian students and others were relatively contented, because 
they had now a reformist leading Iran. Yet the student unrest 
boiled over because they saw that the conservatives, the 
hardliners in Iran, were trying to undermine Khatami's reforms, 
and they conducted a large protest which Khatami was ultimately 
forced--at fear of dismissal he was forced to actually condone 
the crackdown on the students. And I believe about eight 
students were killed, or seven or eight students were killed in 
that crackdown.
    The same factors that limit public expression in Iran also 
cast some doubt, I think, on objective polling results. The 
regime is very aggressive in imprisoning, you know, civil 
activists. It severely restricts freedom of speech in the 
press. Journalists are routinely arrested for stories critical 
of the government. And reformist newspapers are regularly 
closed.
    Polls have also in some sense missed some of the big 
election turning points we have had in Iran. For example, the 
June 2005 election of Mahmoud Ahmadinejad, very few experts saw 
his emergence. The thinking was that Akbar Hashemi Rafsanjani, 
the senior leader in the regime, would win those elections. He 
did not. There was also a shock when Khatami was first elected 
in 1997. The thinking was that the conservative candidate was 
going to win because the regime was going to fix the election 
to ensure he won. He did not. He was overwhelmingly defeated, 
and in fact went on television to concede defeat.
    From a policy analysis standpoint, I think it is 
significant to try to assess the degree to which public opinion 
affects Iranian behavior. And what we can say is it really does 
not in many ways. Iran's system is very opaque. The Supreme 
Leader has under the Constitution vast powers, even to dismiss 
the President without even much cause. The Supreme Leader is 
sometimes described as being out of touch, yet he does maintain 
contacts with his constituencies, the bazaar merchants and all.
    In some ways, Ahmadinejad is out of touch. He has 
surrounded himself with former Revolutionary Guard officers 
that served in the Iran-Iraq war, as he did. They have sort of 
an insular opinion. They viewed the Iran-Iraq war as a heroic 
struggle, whereas the senior leaders, the Supreme Leader 
Rafsanjani and others viewed it as a time of deprivation, where 
Iran's economy nearly collapsed. So even though Ahmadinejad is 
elected, many would argue in some ways he is more out of touch 
than are some of the more seasoned leaders of the regime.
    I would also, as Karim mentioned, the Arab-Israeli dispute. 
The Iranian public has never really expressed any major 
interest in interfering or having their government insert 
itself into the Arab-Israeli dispute. Yet Iran, as has been 
noted, is described by the State Department as the most active 
sponsor of terrorism, mainly groups that are opposing the Arab-
Israeli dispute. The conclusion we might draw is there are few 
means for Iranian attitudes to effect policy. The public 
appears amenable to suspending the militarily useful aspects of 
Iran's nuclear program if doing so would ensure economic 
prosperity and avoid further sanctions. But this has not 
translated into Iranian Government policy to date. The 
implications are that U.S. policy efforts likely need to affect 
the thinking of senior regime leaders. If the United States is 
to succeed in persuading the government to suspend its 
enrichment of uranium, it would likely have to convince the 
senior leadership of the regime that an Iranian nuclear weapon 
would not ensure Iran's security or that Iran's economic future 
is jeopardized by the continuation of that program. Or 
alternately, the sanctions imposed on Iran would have to be so 
tight and so significant that it creates overt public unrest 
that the regime has to respond to.
    The Iranian public might not necessarily blame the 
international community for imposing sanctions, but might 
instead blame Ahmadinejad and the senior leadership for 
providing the United States with justification for ratcheting 
up the sanctions, because Ahmadinejad is widely perceived as 
provoking confrontation with the international community on the 
nuclear issue.
    The polls suggest nuclear power as electricity generating 
is popular, because Iranians want technological achievements, 
sophistication, etc. But the polls I believe, indicators of 
attitude, do show that the public does not want to push the 
nuclear program so far that it ends up with Iran being isolated 
and crippled by economic sanctions. If the serious unrest 
unfolds, that would likely attract the definite attention of 
the Iranian senior leadership. However, as discussed, the 
leadership has thus far shown no hesitation to react with 
repressive force to suppress rioting and demonstrations, and 
would likely do so in the future.
    Thank you.
    [The prepared statement of Mr. Katzman follows:]

    [GRAPHIC] [TIFF OMITTED] T7589.063
    
    [GRAPHIC] [TIFF OMITTED] T7589.064
    
    [GRAPHIC] [TIFF OMITTED] T7589.065
    
    [GRAPHIC] [TIFF OMITTED] T7589.066
    
    [GRAPHIC] [TIFF OMITTED] T7589.067
    
    [GRAPHIC] [TIFF OMITTED] T7589.068
    
    [GRAPHIC] [TIFF OMITTED] T7589.069
    
    [GRAPHIC] [TIFF OMITTED] T7589.070
    
    Mr. Tierney. Thank you very much, Dr. Katzman. Thanks to 
all our witnesses. I am going to prolong this for a second 
before we get into questions and answers just because I think 
it would be instructive for everyone to hear a little bit about 
the actual structure of the government in Iran. And maybe, Dr. 
Katzman, we will start with you. If you could just give a brief 
primer on the Supreme Leader and how the Supreme Leader gets 
authority, about the Assembly of Experts, how they are either 
elected or appointed. The same with the Council of Guardians, 
the President, the parliament and all that. And then people can 
ask questions, and other panelists can add comments if they 
care to.
    Mr. Katzman. Thank you very much. The Supreme Leader is not 
elected, but he is selected. When Ayatollah Khomeini, who was 
the founder of the Islamic Revolution died, the Assembly of 
Experts, which is elected on a provincial basis, this 83-seat 
body, meets and selects a new Supreme Leader. So the Assembly 
of Experts chooses a Supreme Leader. It can amend the 
Constitution and it can oversee the work of the Supreme Leader. 
The President, Ahmadinejad in this case, is directly elected by 
the public. The Majles, the parliament, is directly elected. 
The Majles can pass legislation; however, that legislation is 
reviewed by an unelected body, an appointed body called the 
Council of Guardians. The Council of Guardians ensures that any 
legislation comports with Islamic law, that it is not un-
Islamic. And half the appointments are by the Supreme Leader, 
and the other half are by the judiciary, with the concurrence 
of the elected Majles. It is really very much a hybrid system. 
This Council of Guardians not only reviews legislation, but it 
screens candidates in the elections. So if you want to run for 
a seat in the parliament, you need to be vetted, you need to be 
approved by the Council of Guardians. If you want to run for 
President also, you must also be vetted by the Council of 
Guardians. And routinely in Presidential elections 150, 200 
people file to run for President, and the Council of Guardians 
generally winnows that down to about 8 to 10, sometimes it has 
been less candidates for President. And in some cases women. 
Because the Constitution is a little bit unclear, some women 
have sometimes filed to run for President. But the Council of 
Guardians interprets the Constitution as not allowing women to 
run. So it routinely has omitted them from the field.
    Thank you.
    Mr. Tierney. Thank you. I think that is quite helpful. Let 
me just begin the questioning briefly. It appears from the 
opening statements that sanctions might well have an impact, 
but it would be important for the people of Iran to understand 
perhaps that the sanctions are a result of the conduct of their 
government, something they would assess responsibility for to 
them as opposed blame to the countries imposing the sanctions. 
And then the government of Iran would then perhaps feel the 
heat from their own population and take some reaction to that. 
Several of you have mentioned the idea of being able to 
communicate over the heads of the Iranian Government to the 
people. How do you propose that might be done? And then the 
second part of the question would be how do you propose it 
might be done without increasing the paranoia of the Iranian 
Government, or what borders on paranoia, at least their 
insecurity that somebody would be trying to change the regime 
as opposed to changing attitudes?
    Maybe start with Mr. Ballen and move left to right.
    Mr. Ballen. Thank you, Mr. Chairman. I think that is a good 
question. The problem is there is a battle for public opinion 
inside Iran. The regime does care. It may not follow what 
people want, but it desperately cares what people think.
    As I mentioned, in our poll there was a very committed 
minority base that it plays to as well. So that if we persist 
in saber rattling and talk of war, we persist in sanctions, and 
there is nothing positive on the horizon, there is no future 
being articulated about a vision of what the United States 
thinks and the international community of a future Iran that is 
secure, that can trade, that is a fully respected member of the 
community of nations, we leave the playing field open to the 
Iranian Government to portray the sanctions and portray the 
hostility as just that, hostility, and there is nothing to 
counterbalance it.
    There are a lot of imaginative ways. President Nixon went 
to China. Our greatest emissaries since 9/11 in reaching out to 
the Muslim world have been former President Bush and former 
President Clinton after the tsunami. If I were the President of 
the United States, I would send them to Iran and talk to the 
Iranian people, talk to the Iranian Government, and put our 
case forward. Because at the end of the day, I think the United 
States can have a good, positive case to make. But if we don't 
make the case, and it is only about sanctions, only about 
military force, I think we will lose the battle of public 
opinion, which is important inside Iran.
    Mr. Tierney. Mr. Sadjadpour.
    Mr. Sadjadpour. I would argue that this current leadership 
in Tehran, especially the hardliners, really thrive in 
isolation. And they thrive as a result of sanctions, which have 
been in place for three decades now. I described them as kind 
of a weed which only grows in the dark. And you know, think 
about it. If you were a 75-year-old cleric in Tehran and you 
have a senior post in the Iranian Government, do you really 
want the country to open up and become more meritocratic? Or if 
you are a Revolutionary Guardsman which is privy to million 
dollar oil deals, do you really want Iran to open up and join 
the WTO and become more meritocratic? So I think actually 
sanctions and isolation further entrench the rule of a lot of 
these hardliners in office currently.
    Now, that being said, I don't advocate removing the 
sanctions or offering Iran major economic or political 
incentives at the moment. What is problematic about that is 
that when Iran had a President, Mohammad Khatami, who was 
talking about the dialog of civilizations, Iran got little in 
return. Now you have a President, Mahmoud Ahmadinejad, who is 
calling for Israel to be wiped off the map, denying the 
Holocaust.
    So I think it is problematic from a Western policy 
perspective if we offer an Ahmadinejad administration 
incentives which we didn't offer a Khatami administration. 
Because the message Iran will learn is that when we take a 
moderate approach it projects weakness, but when we take a 
belligerent approach it reaps rewards. So I think that 
sanctions at the moment and the near term are a necessary means 
to make it clear to Iran, again, that a belligerent approach is 
not going to reap rewards. And I think we need a way of showing 
to, especially the hardliners in Tehran, that again this policy 
that they are currently pursuing is going to bring about 
isolation. And I think the Iranian people will elect more 
likely more pragmatic leadership when it comes to the next 
parliamentary and Presidential elections.
    But ultimately I would agree with Ken and others who say 
that a prerequisite to domestic internal political change in 
Iran is a U.S.-Iran diplomatic accommodation. I see very little 
hope of the Iranian people, whom we have described today as 
being very much in favor of a more progressive, democratic 
system, at peace with its neighbors, at peace with the United 
States, I see very little hope they will become empowered and 
they will be able to achieve these dreams as long as the U.S.-
Iran relationship remains as it is, which is in isolation.
    Mr. Tierney. Thank you. Dr. Katzman.
    Mr. Katzman. Well, my assessment is that I do see some 
signs that the ratcheting up of international sanctions is 
indeed starting to produce differences of opinion within the 
leadership, and that if this course of action were continued 
and perhaps accelerated these divisions could be exacerbated to 
the point where Iran might even consider altering its position 
on the nuclear issue. I think the change in the nuclear 
negotiator last week was reflective of that. I think the 
Supreme Leader and Mr. Rafsanjani, who reflect the views of the 
bazaar merchants, the trading community who want to deal with 
Europe and the outside world, they are becoming very nervous 
that these sanctions are going to cutoff Iran from Europe, from 
the United States, from the outside world, and they have seen 
what the U.S. power can do. They were in the leadership during 
the Iran-Iraq war, and they saw what the United States did in a 
naval battle in April 1988, and other things. And they are very 
much in awe of the U.S. power.
    Ahmadinejad less so. Again, he views the Iran-Iraq war as a 
heroic struggle. His constituencies do not buy fancy European 
luxury goods. They don't care whether they are isolated from 
Europe or whatever. And so he seems willing to push the nuclear 
issue to the brink. The Supreme Leader and the others I think 
are much more sober about the possible effects if these 
sanctions are ratcheted up to the point where they really 
squeeze Iran's civilian economy, as we see some signs that they 
have started to do.
    Mr. Tierney. Thank you very much. Mr. Higgins, you are 
recognized for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman. Just going back to, 
as Mr. Ballen said, focus here on the Iranian people and their 
attitudes about their lives, their history, and their future. 
What seems to be going on in Iran today is a more passive 
revolution, perhaps influenced by disappointment, having the 
population having had their expectations raised about economic 
reform and then not seeing that reform actually implemented and 
affecting their individual lives.
    Can you give us some examples of how this passive 
revolution is manifesting itself in Iranian society?
    Mr. Ballen. Thank you, Mr. Higgins, but before I address 
that I just want to clearly state my view for the record, which 
is that sanctions are important. Increasing sanctions are 
important. However, if it is done without anything positive on 
the agenda, if it is done without any carrot, if it is just 
sticks coming from the United States, to be blunt, those sticks 
will fail alone in isolation. And as Karim said, I don't think 
there is any doubt that it plays into the hands of the most 
hardline and recalcitrant people inside Iran.
    So I think you do need sanctions. I think everyone 
understands it might be a military action. You don't need to 
keep repeating that. I don't think that is helpful. But I think 
that accompanied by that, as we did in the cold war, we must 
recognize the importance of people because it could be a 
countervailing pressure inside Iran. And it also lets people 
understand that the sanctions are a result of the government's 
policies, and not from American hostility.
    Mr. Sadjadpour. About economic reform, what I would do to 
build on Ken's points and the chairman's question, in 
approaching Iran I would simply present two very distinct paths 
to the Iranian Government and present it publicly so it is also 
heard by the Iranian people. The first path is A, continue to 
take a noncompromising approach, a belligerent approach, and it 
is going to bring about isolation, increased economic malaise, 
increased political isolation for the government. And again, 
this is a population overwhelmingly young, two-thirds under 32. 
The aspirations are not to wipe Israel off the map and enrich 
uranium. They aspire to be reintegrated into the economic 
community and have economic prospects.
    But simultaneous to that you do have to present an 
alternative approach, which is what President Bush Senior once 
said, good will begets good will. That if Iran takes a 
compromising approach, it is going to be met with certain 
incentives, reintegration into the international community, 
security assurances from the United States, and presenting 
these two approaches publicly will increase the desire of the 
Iranian people, increase the demands of the Iranian people on 
their government to take an approach which is less belligerent, 
less noncompromising.
    But again, if it is just the threat of, quote-unquote, all 
options being on the table and saber rattling and sanctions and 
no alternative policies, I don't really see any change from 
what we have seen the last three decades, which is essentially 
Iranian behavior not improving one bit.
    Mr. Katzman. Thank you. Just to add a little bit, because 
we talked about the military action issue. My own assessment is 
that the talk of military action in some ways, although maybe 
it is not always presented that well, in some ways it has 
helped convince the Europeans how seriously the threat from 
Iran is taken in the United States. The Europeans, and I just 
was in Europe talking, they have a very different threat 
assessment of Iran than the United States does. And very much 
when you talk to European diplomats, the view is, well, we are 
going to try to prevent Iran from getting a nuclear weapon, but 
if they do, well, we will deal with it.
    The U.S. view is much, much different. Much different 
threat assessment. The Europeans do not want the use of force. 
And the talk of military action has in some sense convinced the 
Europeans how seriously this threat is taken in the United 
States and has propelled them to offer new proposals for 
sanctions, for ways of pressuring Iran without use of force.
    So in some sense it has not all been a negative development 
in my assessment.
    Mr. Tierney. Thank you very much. Mr. Shays was saying he 
was going to take his jacket off. I offer that to anybody in 
here. It is warm. It has been warm in the room here. We don't 
hold formality on that. Mr. Yarmuth, you are recognized for 5 
minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman. I was struck by the 
comments that all of you made in that the foreign policy of the 
Iranian Government does not reflect the vast majority of the 
citizens. And all I can say is we feel your pain or feel their 
pain. I am interested in the idea that our hope for a change in 
policy there may rest more with convincing from the bottom up. 
This is my interpretation of what was said, the bottom up of 
the population affecting the leaders as opposed to actually a 
formal change in the regime.
    Is that a correct assessment or could you elaborate on 
that, that elections or a change in the supreme leadership is 
not necessarily going to effect change, but that this 
percolating attitude may change? Is that our best hope or 
better hope?
    Mr. Ballen. I would simply say that is one element. I agree 
with what Mr. Katzman said that the regime has its own drivers, 
not just the--it is not a regime that respects the Iranian 
people. I think we all understand that and because the Iranian 
people want one thing doesn't mean the regime is going to do 
it.
    But on the other hand, it is not a regime that is 
completely insensitive to public opinion, either.
    And there is an ideological state, part of many inside the 
Iranian ruling class being connected to the people and having 
popular legitimacy. They wouldn't spend the amounts of money 
they spend on presenting public opinion in Iran, which they do, 
if they didn't care about it.
    So I think that it is important but it is only one element, 
but it is an element that we should not ignore.
    Mr. Yarmuth. There is an article in Esquire Magazine, in 
the November edition, called the Secret History of the 
Impending War with Iran that the White House Doesn't Want You 
to Know. It is based on interviews with two officials, one 
State Department official, and one member who worked on the 
National Security Council and dealt with Iran, Flynt Leverett 
and Hillary Mann. And there are some pretty stunning reports in 
here. One of them from Hillary Mann that in 2003, in April 
2003, right after the war began, that a diplomat of Iran, a 
high ranking Iranian diplomat, the nephew of the Foreign 
Minister, son-in-law to the Supreme Leader, was in discussions 
with the Swiss Ambassador who was then conducting diplomacy, 
basically, I guess, as a proxy diplomat for us, and the day 
that they had offered an agreement that was approved at the 
highest levels in Tehran, including decisive action against all 
terrorists in Iran, an end to support for Hamas and the Islamic 
Jihad, promise to cease its nuclear program and also its 
program to recognize Israel. The administration ignored the 
proposal and, in fact, reprimanded the Swiss Ambassador for 
meddling.
    I am curious as to whether this type of information is used 
by the Iranian Government, assuming that it is valid, credible, 
that this is the type of thing that is used on a PR effort 
inside Iran, and what this type of information, if it were 
widely disseminated, would mean for our relationships with the 
people and the government.
    Mr. Sadjadpour. There was a very interesting trial balloon 
which the Iranians floated in 2003, and really 2003 was a 
different world to 2007. I was based in Tehran at that time, 
and I can tell you that the Iranian leadership was quite 
nervous about what the U.S. Government was going to do.
    If you recall at that time in 2003, oil prices were about 
$25 a barrel, Iraq was a still a blank slate. There were 
student agitations taking place in Tehran. And again, the 
Iranians were nervous that the Hawks in Washington were 
thinking about transferring the regime change policy eastward 
to Tehran. So this trial balloon was floated.
    Now fast forward to 2007. Iran has tremendous leverage, not 
only in Iraq but throughout the region, and they don't feel 
compelled to make these same type of compromises.
    So we do see that when the regime is under duress, it is 
prepared to make compromises on issues which they appear very 
ideologically rigid on. They can compromise for the sake of the 
government.
    What I would say in response to your first question is that 
we simply don't have the luxury of waiting for more progressive 
interlocutors anymore. The urgency of the nuclear issue, the 
urgency of the state of Iraq, is such that we have to talk to 
the current leadership in power in Tehran.
    But elections in Iran, despite the fact that they are not 
free and fair, elected institutions can have an effect on the 
Iranian policies. We obviously see a difference between the 
views and the policies of an Ahmadinejad-led government as 
opposed to Khatami-led government.
    So whereas I don't see any hope for some type of dramatic 
change in which true representatives of the Iranian people will 
be in office in the next few years, I do believe we will see a 
change that--we will see the prospect of less belligerent, more 
pragmatic leaders in Tehran who I think will be more amenable 
to certain compromise with the United States on the nuclear 
issue and other issues.
    Mr. Tierney. Thank you, Mr. Yarmuth. You also gave a tease 
on the next series of hearings that we will be having which 
will go into depth on some of the negotiating opportunities 
since 2001 through today and possibly for the future.
    Dr. Katzman, do you want to add something to that?
    Mr. Katzman. My conversation with U.S. officials on that 
initiative and that idea suggested that it was much more murky, 
and we still really haven't gotten to the bottom of how well 
vetted that whole issue was in Tehran.
    The list of things on that list, I find very hard to 
believe that Iran would ever agree to that many things. That 
would be like saying the Islamic Revolution never happened. 
That would just be a repudiation of everything Khomeini stood 
for and the entire basis of the revolution. I find it very 
difficult to believe they would ever agree to that package of 
offers.
    Mr. Tierney. Thank you. We are going to have some of those 
folks in to talk to us at the next hearing. So that should be 
very interesting in that respect.
    Ms. McCollum, you are recognized for 5 minutes.
    Ms. McCollum. Thank you, Mr. Chairman.
    We had a little bit of a discussion of how our governments 
could engage, and I am hearing clearly that, you know, speaking 
to one another, listening to one another changing the tone, it 
will be tough on both sides, but changing the tone so it is 
more civil in nature.
    I would like to talk a little bit about two other ways in 
which engagement takes place. One is people to people.
    I serve on the Appropriations Committee, and we recently 
had a hearing, not specifically so much with Iran, but talking 
about Voice of America, the Internet, TV, and radio exchanges.
    I am a big supporter of Voice of America and the other ways 
in which we can engage, whether it is Internet, TV, and radio, 
as a way of sharing information, health care, what is going on 
with avian flu, what is going on in the news, current events 
around the world. Things like that. Educational cultural 
opportunities so that the engagements reinforce family to-
family, person-to-person.
    But there are other engagements that go on, and I was a 
little taken back by the statement, and I am going to reiterate 
the way I heard it so I can be corrected if I heard it wrong, 
that Europe is not engaged with Iran. We hear quite different 
from this administration at times criticizing the French and 
others for their engagement.
    So I would like a little more information on that.
    China is very engaged. I understand there is an airplane 
exchange being talked about because we do not supply even parts 
to commercial aircraft in Iran, and they are in desperate need 
of having that because of life, health, and safety issue for 
the Iranians, as well as other people traveling in and out of 
Iran.
    And then India. India is engaged. India is a very robust 
democracy.
    So if you could talk about those type of engagements and 
how we can learn from them or not repeat some mistakes that 
they might be making.
    Mr. Ballen. Let me just first comment on the issue of China 
and France and what we found in our poll.
    While there was a lot of feeling of opening up to the 
United States, Iranians preferred dealing with France and China 
by a two-to-one margin over the United States. The only other 
country that was less popular inside Iran in our poll than the 
United States was Israel.
    So while there is pro-American sentiment, we are not 
exactly No. 1 on the list. There is a strong undercurrent of 
distrust, and I absolutely agree with what you are saying that 
the people-to-people, educational exchanges, all of that is 
vital. Absolutely vital, not only with Iran but around the 
world. The broadcasting of Voice of America and other agencies, 
I mean, we live in one world now. People look at the Internet.
    For example, our poll was widely spread throughout the 
blogosphere inside Iran. We no longer live in isolation. 
American words, American policies matter throughout the world.
    Mr. Sadjadpour. I would like to focus just on one aspect of 
your question which is about Voice of America, and Radio Free 
Europe and some of these other Persian language television and 
radio broadcasts to Iran because there has been a big debate in 
Washington, and there has been a lot of criticism, that Voice 
of America and Radio Tomorrow have not been sufficiently 
sympathetic to the views of the current administration in 
Washington and haven't been sufficiently critical of the views 
of the Iranian government.
    What I would simply say is that if we want these programs 
to be relevant, whether it is the VOA television broadcast or 
the Radio Farda radio broadcast, they have to be perceived as 
objective and professional in the eyes of Iranians.
    Iranians right now are faced with two types of media. They 
have the official state-run television media, which is 
essentially government propaganda, and they have satellite 
television channels from Los Angeles, which are essentially 
Iranian exiles very much detached from the country and also not 
considered a credible source of news.
    So I think there is a real vacuum to be filled. And if we 
try to fill that vacuum by projecting our own propaganda, I 
think we really insult the intelligence of the Iranian people. 
But I do think if we tried to take an objective, professional 
approach, similar to what the BBC World Service does, I think 
there is a real vacuum to be filled, and we will have a real 
audience and we will have a real impact in Iran.
    Mr. Katzman. Thank you.
    Under the Treasury Department regulations that govern the 
limited trade that the United States does with Iran, civilian 
aircraft parts can be licensed for sale to Iran. And the 
Clinton administration did license a sale, and the Bush 
administration, about a year or so, agreed to license a sale of 
some spare parts, landing gear, for Iran aircraft.
    But it has to be licensed on a case-by-case basis. It is 
not just automatic. And the work has to be done sort of by 
contractor, and it can't be done by Americans. Lufthansa has 
done the work.
    The countries in Europe, China, India, they have a very 
different threat perception of Iran than the United States 
does. They are not in the lead in any sense on the Arab-Israel 
dispute resolution as the United States is, and the United 
States is very sensitive to what Iran is doing to undermine 
Israel and the Arab-Israeli resolution of that dispute. China, 
India, Europe have far less, I think, a sober assessment of 
Iranian policy. Iraq, obviously, they are not involved in Iraq. 
Europeans, not all of them.
    So I think the threat assessment is different. China 
obviously is motivated by oil. Needs a lot of oil. Iran is a 
source of oil. India, India sees Iran as a regional player, 
doesn't want to come into conflict with Iran. They have some 
naval and other exchanges at a fairly low level, but there is a 
defense agreement of exchanges at least so that they don't come 
into conflict in the Indian Ocean, Persian Gulf, etc.
    Europe does a lot of trade with Iran, and as I said, just a 
very different threat perception. They do not have the 
psychological history that the United States has with Iran.
    Mr. Tierney. Thank you.
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman. I thank the panelists 
for their excellent testimony.
    Two areas of questions I would be interested in everyone's 
opinions on.
    First is your assessment on the current administration's 
intention of using military force in Iran. I mean, that is 
constantly in the news. It is constantly laid out there as a 
potential threat.
    I would be interested in actual use of force. I would be 
interested in how seriously you believe the administration is 
about pursuing military options and what the consequences of 
that attack would be.
    Mr. Katzman. Thank you very much.
    My conversations with people in the--there has been a lot 
of, as you know, press articles. I don't get the sense that 
there is any decision or any planning or any move toward actual 
military force against--what I am understanding where the 
administration is, they want the sanctions to succeed. There is 
a belief that if the Europeans join us in tighter sanctions we 
might have a chance of success. But the administration doesn't 
want the negotiations with our partners to just drag on and on 
and on without result. There is a view that there needs to show 
some progress soon, that Iran needs to show that it might 
change its position due to these sanctions at some point fairly 
soon.
    The view is that, the administration view is that an 
Iranian nuclear weapon is unacceptable and must be prevented. 
That is--I believe that is U.S. policy, and if the negotiations 
on sanctions just go on and on and on without result, then I 
would say that these options probably will get more focused at 
some point fairly soon.
    Mr. Sadjadpour. I would agree that the military option is 
something that the current administration is not going to take 
lightly. President Bush has said that he would like to see this 
nuclear issue resolved on his watch. And I don't think the 
military option would at all resolve it. It would in fact 
exacerbate it.
    If I have to quantify the likelihood of a military option, 
I would say 20 percent. But I think it is certainly within the 
realm of possibilities, and increasingly the pretext being used 
for potential military action is not the nuclear issue, it is 
Iran's alleged support for militias which are killing U.S. 
troops in Iraq.
    As for the repercussions, I would repeat what I said 
earlier in the hearing, that when I think about U.S. foreign 
policy challenges over the next decade or so, there are five or 
six things that come to mind: Iran nuclear proliferation, 
terrorism, energy security, Arab-Israeli peace and Afghanistan.
    Really thinking about bombing Iran, what would it do to 
these issues? Iraq, the likelihood of stabilizing Iraq is much, 
much less. I think the likelihood that Iran starts to pursue a 
nuclear weapons program unequivocally increases if we bomb 
them. I think the likelihood that Iran will support terrorism 
more increases if we bomb them.
    In terms of energy security, oil prices go up at least 20, 
30 percent, perhaps. The likelihood that Iran supports 
Palestinian rejections groups, Hamas and Hezbollah, increases, 
and again the likelihood that Iran will see fit to play a 
constructive role in issues of common mutual overlap like 
Afghanistan also decreases.
    So I really see no redeeming qualities to the military 
option, not to mention the fact that this is the last oasis of 
good will which we have in the Middle East in terms of the 
Iranian population, and I think we likely soil that oasis by 
bombing Iran.
    Mr. Ballen. Based on my discussion with senior Pentagon 
officials, I would concur in the conclusions of my colleagues.
    I would point out one finding in our policy. Two-thirds of 
the people in Iran support Hamas, Hezbollah, Iraqi Shiite 
militia groups. I think that if we had a military attack, that 
support would likely increase.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Lynch, you are recognized for 5 minutes.
    I do note there are three votes scheduled on the floor 
right now: 15-minute vote on the previous question, for H.R. 
3867 followed by a vote on the Internet Tax Freedom Act 
Amendment Act of 2007, 5 minutes, followed by a vote on 
designation of the month of October 2007 as Country Music 
Month, H.J. Res. 58, 5 minutes.
    So we will go as far as we can, and we will break for a few 
minutes for good consideration and have our witnesses come back 
after that.
    Mr. Lynch.
    Mr. Lynch. I want to address the situation on the 
possibility of sanctions, and I think the closest example that 
we have is the previous limited sanction that we had against 
Iraq, the Oil for Food Program. And these sanctions, while I 
think it is probably the way to go, the efficacy of these 
sanctions is questionable given the fact that the last 
sanctions that we had against Saddam Hussein were meant to be 
just that, a limited sanction but in effect in retrospect 
turned out to be a bonanza. It was a sweepstakes for him 
siphoning off billions of dollars.
    The efficacy of any sanction program will depend on the 
willingness of our international neighbors to support us. Right 
now we have 1,700 German companies operating inside Iran.
    Iran, if you look at Italy, Italy is Iran's third highest 
trading partner. We don't have solidarity for governments in 
action.
    So what I am afraid of is that even if we do adopt these 
sanctions, that they will be less than useful. And so I would 
like to hear your thoughts on that, and second, in light of the 
votes here, there have been some quiet entreaties from the 
Bundestag to try to identify members of our committee and our 
Congress and moderate members of the Iranian parliament and 
members of the Bundestag to try to sit down and talk about just 
the broader implications of this situation. And I, for one, am 
loath to undermine the efforts of our own State Department or 
to complicate this matter if it is possible, but I would like 
to hear what you have in mind--in your minds as to the thoughts 
of some person-to-person or citizen-to-citizen or legislator-
to-legislator type of dialog that might get us off of the 
position that we currently find ourselves in.
    Mr. Sadjadpour. With regards to sanctions, when the Iraq 
war was prosecuted, what we saw was the United States pursued 
very strong resolutions and strong sanctions and thereby had a 
very weak coalition.
    I think what is key, if we want to try to attempt to change 
Iranian behavior, is initially weak sanctions and weak 
resolutions in order to achieve a more robust international 
coalition. Because I can tell you if Iranian leaders wake up in 
the morning and they say well, there is an intensification of 
U.S. sanctions but they have been in place for a few decades, 
we can endure it; but if they wake up in the morning and they 
say wow, not even China or Russia or India are returning our 
phone calls, then I think the world view from Tehran changes a 
bit.
    But in order to get Russia and China and India on board, we 
have to make it clear to them we are not pursuing a military 
option, and that we are turning up the heat gradually and 
allowing Iran a way out if they choose to take a more 
conciliatory approach.
    The second issue about interaction. We are at times of 
potential war and peace right now. So I think any type of 
dialog, especially between our Congress and the Iranian 
parliament, would be welcome. I think what is lacking right now 
is some type of a dialog, if anything, just to communicate one 
another's red line.
    One example I like to give is of a deputy foreign minister 
in Iran. And when I used to be based in Tehran, he was always 
the hardest line interview I would have. Of all of the people I 
talked to, he was always very conspiratorial, always unwilling 
to divulge information, very suspicious of me personally; and 
he came on a fellowship to Harvard University last year, and he 
spent 8 months in the United States. And it was amazing based 
on his interaction with U.S. academics and U.S. analysts how 
much his views had evolved and how much their views had evolved 
that you appreciate the other side's concerns, security 
concerns and ambitions a bit more.
    So my experience has always been that whenever these 
interactions happen, it helps to educate the other side, and it 
allays these tensions. It doesn't increase these tensions. So I 
think, broadly speaking, especially when we are talking about 
the level of Iranian and U.S. Congressmen and elected 
representatives, I would welcome the initiative.
    Mr. Tierney. We have about 5 minutes to vote.
    Mr. Lynch, your time has expired. We will be coming back 
for the panelists. The votes are probably about 20 minutes to a 
half hour, but we will start immediately once the committee 
gets back. I thank you for your patience and tell Members we 
will start as soon as the last vote is made. And then we will 
return. Thank you.
    [Recess.]
    Mr. Tierney. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you for allowing me to jump in here 
between other questioners.
    Mr. Ballen, I would like to start just to get a little 
understanding, I don't think I am going to repeat anything that 
was asked earlier, and being in three places at once I am still 
working on, so I apologize if I do.
    But in the polling that the organization has done, one of 
the issues was about the support of the Iranian people for 
groups such as Hamas, Hezbollah, state, or identified by us as 
terrorist organizations.
    They weren't identified that way, is my understanding in 
the way the questions were posed to the Iranian people; is that 
correct?
    Mr. Ballen. Yes, sir. That is correct. I mean, we simply 
named the groups. We didn't identify them as terrorist 
organizations. This would introduce bias in the question, and 
what the Iranians said was two-thirds have a favorable opinion 
of these groups, roughly two-thirds but I want to put that in 
some context. You can ask people in a survey what they think 
and you will get one answer, but it is important also to put it 
in context priorities.
    That was not a priority for their--when we gave them a set 
of priorities to pick for the Iranian Government, the top 
priority was the economy, better relations with Western nations 
came in ahead. These matters, financial assistance to Hamas, 
Hezbollah, were not a priority, nor was nuclear weapons.
    Mr. Platts. They were identified, as is my understanding, 
as Palestinian opposition groups. So they were identified in 
some fashion.
    Mr. Ballen. You know, I believe that is correct. But I 
don't have the exact Farsi version in front of me. But we did 
not--we identified them by name and----
    Mr. Platts. My reason for asking is whether there is an 
ability to determine what the Iranian people, their views of 
President Bush, but some of what your polling shows and our 
current actions, if those views would be different if they 
understood how we see those organizations for their support of 
terrorism or engagement of terrorism, if that would impact the 
Iranians' view of the economy being one and foreign affairs 
being down the list. It would be different if they were 
identified in that fashion, but there is nothing in your 
polling that would be able to indicate that?
    Mr. Ballen. That is correct.
    Mr. Platts. Also recently in the Senate, the Kyl-Lieberman 
amendment that was passed designating the Iranian Revolutionary 
Guard as a terrorist organization based on their efforts 
regarding weapons of mass destruction, was that organization--
or was that addressed at all in the polling?
    Mr. Ballen. No, it was not.
    Mr. Platts. If you were going to ask about it, how would 
you address that to the Iranian people in the way we see them 
now based on the Senate amendment as a terrorist organization 
or, again, just asking them in a generic way about the Iranian 
Revolutionary Guard?
    Mr. Ballen. If you are asking, from my advice in terms of 
how to conduct a survey, and I would defer also to my 
colleagues from D3 Systems who conduct these surveys regularly 
in that part of the world and are experts in conducting surveys 
in Iraq and Afghanistan and closed societies like Iran, Syria. 
I think it is important when you ask questions to try to 
eliminate as much as possible any of your opinion or your 
perspective from the question. Otherwise, it would tend to bias 
the answers.
    Mr. Platts. And I am going to run out of time here. 5 
minutes is always tough.
    The final issue, I guess I am going to have time for, is 
the discrepancy that appears in the policy. My understanding is 
it shows the Iranian people supporting both a Palestinian state 
and the State of Israel both co-existing.
    Mr. Ballen. I think that is a very good question, sir.
    What we asked was not that question out of context. We 
asked in terms of normal relations and better relations with 
the United States, would you support a two-state solution. In 
that context, the majority of people would.
    But we did not ask the question do you support a two-state 
solution out of that context. I just want to clarify it for the 
record.
    Mr. Platts. Was there any followup about their own 
President's statements then about the elimination of the State 
of Israel from the face of the map?
    Mr. Ballen. We did not ask that in the survey as a 
question. So I can't give you an answer.
    Mr. Platts. And I appreciate my time has expired.
    Just how to understand the inconsistencies, their support 
for Hamas, Hezbollah, which is certainly doing its best to go 
after Israel, yet to some degree supporting a two-state 
solution.
    Mr. Ballen. I understand. And I am not sure they are 
necessarily inconsistent views, in the sense that I certainly 
consider that and you do, knowing the platform of these groups. 
But Iranians may not perceive it that way. They may perceive 
Hamas and Hezbollah standing up for Palestinian rights as 
opposed to destroying Israel, and that if Hamas or other groups 
reached an accommodation, they would be supportive of that.
    I don't know whether, Karim, you have other----
    Mr. Platts. If others would like to comment.
    Dr. Katzman.
    Mr. Katzman. I would just say it also doesn't necessarily 
mean they support violence by Hamas or Hezbollah. It just means 
they support the political goals of Hamas or Hezbollah.
    And, you know, many in the Arab world, Iran is not Arab, 
but many in the Arab world view those groups as having 
legitimate goals without supporting use of violence in those 
groups.
    Mr. Ballen. I would concur in those remarks. I mean, it was 
a more general question about favorability. So it is hard to 
draw a lot of specifics that they support this policy or that 
policy from our survey.
    Mr. Platts. So your caution then is we shouldn't read into 
that the Iranian people support terrorist activities because we 
don't have the data to understand that.
    Mr. Ballen. Absolutely not. We don't have the data.
    Mr. Sadjadpour. I would make one point, and this was the 
slight inconsistency I saw in my own anecdotal experience as 
opposed to Ken's poll was in my experiences in Iran there was 
somewhat of a backlash toward the government support for groups 
like Hezbollah and Hamas for a couple of reasons.
    One, they would say we are supposed to be a very rich 
country. We have major, massive natural resources and yet a 
quarter of our population is living at the poverty line, there 
is rampant inflation and unemployment. Why are we sending all 
of this money to Hezbollah and Hamas when we have all of these 
domestic problems? Especially among the younger generations of 
Iranians I noticed an increasing sense of discontent for the 
government support for groups of Hezbollah and Hamas.
    So I will just leave it at that.
    Mr. Tierney. Thank you very much.
    Mr. Shays, you are recognized for 5 minutes.
    Mr. Shays. I apologize. When you were giving your 
testimony, I had to go to another hearing. But I did read your 
statements, and I would like your response to a few 
observations.
    One, about 15 years ago, 10 to 15 years ago, I was in 
Iran--I was actually in Jordan talking about Iran to the head 
of their security, Jordanian security. And they basically said 
that when you shake hands with an Iranian, you need to count 
your fingers. And it was said to me in a way that wasn't 
intended to be cute, it was intended to say, you know, these 
are very clever, very aggressive people, and you feel one way 
but then you learn that you just got screwed.
    So I would like to know their negotiating style, and I 
would like your comment to that.
    The other comment I would like you to respond to is that 
when you go to Turkey, the Turks say we used to run this place 
for 402 years, why don't you pay attention to us?
    I go to Egypt, and they will say we have been a country for 
4,000 years. We go to Jordan. They say, we are the Hashemite 
Kingdom, why don't you pay attention to us? I go to Iraq and 
they say, we are the Fertile Crescent. We are where Western 
civilization began. Why don't you give us more respect?
    And one thing that comes across very loud and clear in the 
Middle East is how you treat people and there is a tremendous 
amount of pride that just--it is palpable. You could almost cut 
it with a knife.
    And my last comment, which I would like you to comment on, 
is that when I talk to the administration about Syria or Iran, 
I get the feeling that they feel like I apply my Western mind 
and so I want to treat people a certain way. But the impression 
I get from the administration is you don't understand what you 
do says something different than what you think it does. I am 
talking about the cultural difference. So I could wrap my arm 
around an Iranian and say why can't we work this out together, 
and they might view that as weakness or whatever. I don't know.
    So comments.
    Mr. Ballen. I would agree with you, Mr. Shays, that on this 
issue of respect and pride, and I think we see that very much--
I will speak to the data in the poll just in Iran and Syria 
that we did and other policies around the world. There is a 
hunger. There is not an inimical hatred of the United States. 
That is just false. There is a hunger for a United States where 
people perceive, and the perceptions are important here, that 
they are being treated with pride and with respect. And I think 
that so much about what has happened since 9/11 has been a 
feeling from other countries, particularly in the Muslim world, 
that the United States does not value them, that there is not a 
dignity and respect that is accorded to them.
    I think it is not a correct impression, but it is the 
impression that people are getting. So I think that is a very 
important part of our policy and that we need to figure out how 
we can better convey that we do respect people, that we do 
respect their culture, and we respect their pride.
    Mr. Shays. How about the other point, the other negative 
comments by the Jordanian security chief?
    Mr. Ballen. I am going to let my colleague answer that 
because I don't know the answer.
    Mr. Sadjadpour. Well, it is useful, instructive to kind of 
look, do an analogy of the Middle East and Europe. The Iranians 
are kind of the French of the region. They kind of have a sense 
of chauvinism vis-a-vis the other countries, especially 
countries like Jordan, which has a history which spans a half a 
century as opposed to Iran's.
    There has always been this great sense of chauvinism in 
Arab countries, whether it was the Shah's regime or the Islamic 
Republic. And I think the smaller Arab countries certainly 
resent the same way they say the United States needs to respect 
us, they would direct that same message to the Iranians.
    A couple points that I would make is that when it comes to 
the issue of popular opinion throughout the region, I would 
make the argument that Iran is the only country in the Middle 
East where if there were to be free and fair elections next 
month and let the chips fall where there may, Iran is the only 
country in the Middle East where the results would be an 
improvement on the status quo and would be favorable to U.S. 
policy interests. I don't know if there is any other country in 
the region where you could make that argument. And my point is 
in Iran people have been under repressive Islamist regimes for 
the last three decades, and if they would be able to vote free 
and fair, I think they would elect politicians who would be 
more sympathetic to having relationships with the United 
States.
    Whereas in the other countries in the region, many of them 
U.S. allies, such as Jordan and Egypt, etc., I think the status 
quo autocratic leaders are more progressive than the results of 
democratic elections within those countries.
    Last, the issue of how we should approach the Iranians, and 
I assume you are talking about the Iranian regime, I think 
respect, obviously, is a prerequisite. But I do think that it 
is problematic to offer this particular administration in 
Tehran incentives which we didn't offer the previous 
administration in Tehran which took a much more moderate 
approach. Because if you pay attention to the domestic debate 
within Iran, the hardliners who are currently in power were 
very critical. The former President, Mohammad Khatami, they 
said this talk of, quote/unquote, dialog of civilizations was 
very cute, but all it did was get us into the Axis of Evil and 
project a very weak image of the country, and what we need to 
do is take a hardline approach, and this is what the U.S. 
responds to.
    So I do think it is problematic in the short term that we 
roll out the red carpet for Ahmadinejad and offer the major 
incentives. But I do think that we will start to see a change 
of leadership in Tehran, not a change of regime but a change of 
leadership. And when there are more pragmatic kind of moderate 
officials in positions of influence in Tehran, I think it is 
then worthwhile to make it clear to them that if they want to 
take a conciliatory approach, it will--they will get a 
conciliatory response from the United States.
    Mr. Katzman. You mentioned Iran's negotiating style, and I 
do think we have not seen the type of investment in Iran's 
energy sector that the Iranians expected, not necessarily 
because of the Iran Sanctions Act, which provides penalties on 
foreign investment, but really Iran's negotiating style.
    Any number of oil company personnel have told me that it is 
Iran's negotiating style that prevented them from making or 
slowed major investments in Iran's energy sector because Iran, 
the negotiators, insisted on basically taking all of the profit 
out of the deal.
    They negotiate and negotiate even after the contract is 
signed. The Iranians are still negotiating, renegotiating the 
terms, and many of the European oil companies have found it 
very, very difficult to negotiate with the Iranians and make a 
profit.
    I would also say we have had a lot of discussion about 
incentives. The administration did offer Iran incentives. The 
June 2006 joint offer, the P-5, the Permanent 5 plus Germany. 
The offer to Iran was you suspend uranium enrichment and meet 
some of the other nuclear demands and you can have X, Y, and Z: 
Nuclear medicine, nuclear agriculture nuclear power, WTO, trade 
agreements, etc.
    So there is a package that has been offered to Iran. It is 
not like there have been no incentives offered to the regime.
    Mr. Tierney. Thank you.
    Just to followup on that point, one of the issues I think 
that might be interesting, I don't know how constructive it is 
to say we can talk about all of those things that Dr. Katzman 
said, provided you first give us everything we want before we 
start talking, and I think that has been some of the problem. I 
don't know how productive it is going to be.
    So say we start negotiating with you as soon as you start 
getting us all of the end points that we want in our 
negotiations. We have one administration that wants to win the 
battle before the clocks start. We have another administration 
that is very, very security conscious and all of this paranoia, 
paranoid to some extent on that, and I think we have to break 
through that.
    Can I just ask, there was talk during the conversation 
about international coalition sanctions and the idea that they 
should be built up slowly, which then goes directly in the face 
with what our administration seems to be saying is too slow. By 
the time you end up with that buildup of sanctions and any 
effect on them, they might have a nuclear weapon in place.
    Doctor, do you want to talk a little bit to that?
    Mr. Katzman. Thank you very much. The difference between 
the United States and, I would say, the Europeans right now is 
how quickly to ratchet up the sanctions. The European approach 
is that each sanction resolution should adjust a marginal 
amount to the previous of new sanctions and thereby place some 
psychological pressure on Iran that there is more to follow. 
The U.S. view is that the process is simply moving too slow, 
Iran's nuclear achievement is moving ahead, and we have not yet 
stopped them from enriching uranium and that we need to ratchet 
up the sanctions more quickly and add a lot to the previous 
resolutions and really get at civilian trade with Iran. 
Civilian credits, investment in the energy sector, start 
getting at civilian trade to really, in the administration's 
view, shake up the leadership, that these sanctions are going 
to be quite biting.
    Mr. Tierney. Let me ask this. Because of the security 
consciousness of the Iranian Government, do you think it would 
be constructive if our administration were to make it clear to 
them that ultimately the end of negotiations is there would be 
some security for Iran, that it would not be any attempt to 
change the government other than through an electoral process 
in that country and then came to Congress and asked them for a 
statement that if things proceeded on that end, Congress would 
at least be amenable to start talking about removing some of 
the sanctions?
    Do you think--any of the witnesses think that would have a 
motivating factor in these negotiations?
    Mr. Sadjadpour. I would argue that some type of a U.S. 
recognition of the Iranian Government, and that would entail 
security assurances, is a prerequisite to any type of a broader 
diplomatic accommodation. I think at the moment, what is 
lacking these days between the United States and Iran--and it 
is not just these days, it has been the history over the last 
three decades--is trust. There is a very deep-seated mutual 
distrust, and this has definitely been exacerbated since the 
Bush administration and since the Ahmadinejad administration in 
Tehran.
    What I would argue for a way forward is not to try to 
commence discussions necessarily on the nuclear issue, because 
I think it is an issue where there is just no common ground, it 
is a zero sum game; but it is to continue the discussions on 
Iraq and Baghdad, because that is one issue where there is a 
lot of overlapping interests between the United States and 
Iran. I would go so far as to argue Iran has more common 
interests with the United States in Iraq than any of Iraq's 
other neighbors. Iraq is an issue where we can eat away at this 
confidence deficit, try to build confidence, and then gradually 
expand the discussion to encompass issues like the nuclear 
issue and security assurances.
    And I think what you suggest is a great idea, but I think 
we need a few small interim steps before we can get to that 
type of a gesture.
    Mr. Katzman. Yes. One idea I think some people are talking 
about is to point to Libya, the U.S. agreement with Libya. When 
we made that agreement with Libya, they denuclearized, they 
agreed to give up all of their equipment, it was flown here to 
the United States. And in exchange, the United States laid out 
a road map of lifting of sanctions on Libya. And the United 
States can point to the fact that those sanctions were indeed 
lifted, and Congress did not block it, and the sanctions were 
indeed removed.
    That model I think could be applied to Iran to say if you 
do the Libya thing, you give up, you will get X, Y, and Z. And 
it can work out like that.
    Mr. Tierney. Thank you. You know, it seems to me that some 
people question the legitimacy of the Iranian Government. That 
is their premise just moving out. But would you folks discuss 
with me a comparison the legitimacy of the Iranian Government 
versus that of Libya, Egypt, Jordan, Saudi Arabia?
    Mr. Ballen. Mr. Chairman, I think a lot of those 
governments have the same kind of issues with their people that 
the Iranian Government has with their people. They are not 
elected, representative governments. They do not necessarily--
although sometimes they can reflect popular support.
    I would just add that the issue of sanctions and other 
actions by the United States shouldn't be seen as an either/or 
proposition. Dr. Katzman just said laying out a positive agenda 
of where the future is going to be if Iran does change its 
course. I think we have done it as a matter of policy, but not 
as a matter of public policy in terms of articulating it 
clearly and forcefully.
    Mr. Tierney. Anybody else want to comment on that?
    Mr. Katzman. Just the legitimacy question. I mean some 
would argue actually that the Iranian system is more legitimate 
because it is based upon a Constitution that was adopted in a 
public referendum on the Islamic Republican Constitution after 
the revolution. So one could almost make a case that of those 
you mentioned, Iran has significant legitimacy to its political 
system.
    Mr. Tierney. Mr. Sadjadpour.
    Mr. Sadjadpour. I would just argue that we should take Max 
Weber's definition of ``legitimacy,'' which is monopoly over 
coercion. So even if we don't like the Iranian Government, it 
does very cruel things to its people, it has a monopoly over 
coercion. There is no other game in town. There is no other 
alternative government waiting in diaspora. There is very 
little organized opposition at home. And essentially this is 
the government we have to deal with.
    Mr. Tierney. Thank you.
    Mr. Yarmuth and Mr. Shays, you have any further questions?
    Mr. Yarmuth. I just have one.
    Mr. Tierney. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman. Would you address 
whether there is any difference in the relevance of religion 
among the people to their political mindset, difference between 
that situation in Iran and what we have come to see in Iraq and 
some other Muslim countries? And if there is a difference, what 
relevance that has or what implications it has for U.S. foreign 
policy toward Iran?
    Mr. Sadjadpour. Well, there was an adage which people used 
to use during communist times, and they would say the best 
antidote for communism was to have people live in a Communist 
regime. You know, disabuse themselves of any fantasies of 
living in a Communist government.
    And I think this adage applies to Islamism as well, to an 
extent. The best antidote is to have people endure and live 
under an Islamic system. And what we see in Iran is people have 
lived under this system for three decades. And even those who 
are quite pious and quite religious within Iran are very 
discontent with the status quo, because they say they soiled 
the name of our religion by combining it with politics.
    So we shouldn't have the perception that discontent is only 
among those who are secularly minded in Iran. In fact, among 
the religious classes, there is an equal amount of discontent.
    And I think what is taking place in the Arab world is that 
they romanticize about this Islamist society because they 
haven't really experienced it. And this is why I argue that if 
we were to have free and fair democratic elections in the 
region, the one country with which we could be truly confident 
that the results would reflect U.S. interests is probably Iran, 
just because the other countries in the region haven't 
experienced what Iran has.
    Mr. Yarmuth. Thank you.
    Mr. Tierney. Mr. Van Hollen, you rejoined us. I didn't see 
you. I am sorry. You are recognized for 5 minutes.
    Mr. Van Hollen. Thank you very much, Mr. Chairman. And let 
me thank you very much for holding these--is that on now?
    Mr. Tierney. Yes.
    Mr. Van Hollen. Thank you. And thank you for holding these 
hearings. I think, as you and others have pointed out, we 
haven't had any other diplomats or other personnel on the 
ground in Iran for a very long time. And it is very important 
that we get a much better understanding of what is going on 
inside Iran as we try and decide how to approach Iran and what 
our policy should be.
    And based on all accounts and the testimony you gentlemen 
have provided today, it is pretty clear that President 
Ahmadinejad is quite unpopular at home based on his domestic 
record. The economy, of course, is the No. 1 issue on the minds 
of the Iranian people, and he hasn't delivered, clearly, on 
that. And I think that comes through on the surveys that were 
taken.
    So my question is this: Isn't it counterproductive for us 
to focus on the military option the way this administration has 
been doing in recent weeks? President Bush and Vice President 
Cheney beating the war drums, doesn't that have the effect of 
rallying people in Iran in support of Ahmadinejad and 
strengthen Ahmadinejad among the population at a time when 
otherwise he is very unpopular? And so in that sense, even 
though we all know the military option is always something that 
America has in its arsenal, that by elevating the rhetoric on 
that issue we have the effect of actually bolstering 
Ahmadinejad at home and having a counterproductive result?
    Mr. Katzman. Thank you, Congressman. I think in my talks 
what I am seeing is the administration may be talking about the 
military option, but it is really directed at our European 
partners and Russia and China. It is a way of signaling to them 
the pot is boiling here in the United States. We really find an 
Iranian nuclear weapon absolutely unacceptable, and we need you 
to step up and tighten the sanctions on Iran. I think that is 
really what the administration is trying to get at with that 
talk.
    Mr. Sadjadpour. I might agree with Ken that is the case, 
but I would argue, having just returned from Moscow recently, 
that increasingly Russia and China are actually far more 
worried about the U.S. bombing Iran than Iran getting the bomb. 
So the approach hasn't been constructive in that respect.
    When it comes to the military option domestically within 
Iran, I would just say that the one thing and the only thing I 
could see that could potentially rehabilitate Ahmadinejad's 
Presidency is a U.S. military attack. Because on his own, right 
now the economy is floundering, he hasn't delivered on any of 
his economic promises, but I think U.S. bombs in Iran may 
change that dynamic. And interestingly enough, it could 
actually improve the Iranian economy, because 80 percent of 
their export revenue is from oil, and if you bomb Iran and oil 
prices go up $20 a barrel you could actually improve the 
Iranian economy and help them out even more.
    Mr. Van Hollen. But does raising the rhetoric and focusing 
so much more on the military option, does it have the effect--
does it give him a card to play at home that he wouldn't 
otherwise have? Does it elevate his status and provide more 
support for him than he would otherwise have?
    Mr. Sadjadpour. Yes. First of all, I would say for him I 
think he views the military option as more a carrot than a 
stick. And I think in the eyes of the Supreme Leader--I mean 
really the focus should be on the Supreme Leader, Ayatollah 
Khamenei. We haven't mentioned him today, but he is really the 
individual who is signing off on these key decisions, not 
President Ahmadinejad. And if we tried to get inside the head 
of Supreme Leader Khamenei, he really believes what the United 
States wants is not the change of behavior in Iran, but a 
change of regime.
    And the nuclear issue; Iran's support for Hezbollah, Hamas, 
are just pretexts. And so with that belief, he believes if Iran 
compromises as a result of pressure, whether it is sanctions or 
military threat, compromising as a result of pressure is not 
going to allay the pressure, it is actually going to encourage 
even more pressure because it is going to signal to the hawks 
in Washington that you see, this pressure is working, so let's 
turn up the heat even more.
    So this is kind of a dangerous paradigm in which we are 
operating that people have described it as a game of chess, but 
it is really a game of chicken. You have two cars moving at 
each other, and neither side believes it behooves them to slow 
down, because if you slow down it is going to signal weakness 
to the other side.
    So to answer your question, I do think that the military 
option doesn't hurt Ahmadinejad domestically with the Supreme 
Leader Ayatollah Khamenei.
    Mr. Van Hollen. If I could, Mr. Chairman, and I think you 
raised an important point, we obviously focus a lot on 
Ahmadinejad in this country, forgetting to recognize that the 
Supreme Leader obviously makes the final decisions. And that 
has become sort of the way the press and the discussion in this 
country has unfolded.
    If I could just ask you a question with respect to the 
North Korean model, because for many years in this 
administration you had people saying we wouldn't talk to 
anybody in North Korea, we weren't going to negotiate, we 
weren't going to do carrots along with sticks, we were only 
going to do sticks. And during that period of time, the North 
Korean regime in fact developed a number of nuclear weapons, 
which it has to this day.
    Recently, the administration took a different tact, and 
obviously was willing, even after the Six-Party Talks, to then 
engage in more bilateral discussions with the North Koreans and 
was willing to offer carrots as well as sticks. Do you think 
that represents a good model for now moving forward with 
respect to Iran, or not?
    Mr. Sadjadpour. Theoretically, absolutely. Offering it as 
two distinct paths, offering the path of carrots and offering 
the path of sticks. But I think one of the difficulties in 
devising an effective approach toward Iran is the fact that I 
don't believe there exists a consensus in Tehran. I think if we 
were to assemble this room with the top 10 most powerful 
Iranian officials and ask them, OK, write for us, please, on a 
sheet of paper what you are hoping to achieve in your nuclear 
negotiations and in your negotiations with the United States, I 
think we would get 10 different sheets of paper.
    I think President Ahmadinejad's vision for Iran is 
fundamentally different than the former President Rafsanjani. 
As I said, the Supreme Leader, Ayatollah Khamenei, I would 
describe him as being paralyzed with mistrust. If the United 
States says to Iran, OK, we want to dialog with you, he will 
receive it as a pretext for a regime change approach. And if 
the United States tries to isolate and sanction you, he will 
also perceive it as a pretext for regime change. So somehow we 
have to send the signal to Khamenei that the goal of the U.S. 
Government is not regime change, it is behavior change. And 
this is very difficult to do after three decades of not having 
relations and not having dialog.
    And despite the fact that Secretary Rice may announce this 
publicly, that this is about behavior change, not regime 
change, when we have two U.S. aircraft carriers in the Persian 
Gulf, and 75 million set aside for democracy promotion, and 
hundreds of thousands of troops surrounding Iran, it is easy to 
see why they get conflicting signals.
    Mr. Van Hollen. Thank you.
    Mr. Tierney. If I can interject one, you just mentioned 
democracy promotion. And I think that leads to an interesting 
part of your submitted testimony where you talked about Iran's 
most respected dissidents and democratic agitators have asked 
the U.S. Government to cease such democracy promotion efforts. 
Can you tell us why it is they asked for that? I am sure when 
Congress passed that they thought they were doing a good thing. 
Mr. Sadjadpour, if you could.
    Mr. Sadjadpour. I really defer to Iranian democratic 
activists when it comes to this issue. And I was very curious 
to see in particular the views of this gentleman Akbar Ganji, 
who is really Iran's most respected dissident leader. He was in 
solitary confinement for 5 years, and he wasn't able to 
comment, obviously, during those 5 years, and when he came out 
I was very curious to see what his recommendations for U.S. 
policy would be. And his assessment, and that has been the 
prevailing assessment in Tehran, is that this public fanfare 
about promoting democracy in Iran and setting aside of millions 
of dollars simply gives the Iranian regime a further pretext to 
clamp down on these democratic agitators and civil society 
activists on the pretext of protecting national security.
    Now, I am not exonerating the Iranian regime's cruelty and 
blaming it on the Bush administration. This regime was abusing 
their population far before the neocons came to power in 
Washington. So I am not saying this is necessarily primarily as 
a result of Bush administration policy, but the United States--
$75 million is like $1.25 per Iranian. The notion that we are 
going to change this government with $75 million, I think, has 
been seen to be ineffective and ultimately counterproductive.
    Mr. Tierney. Thank you. I am just going to take a moment to 
read the quote that you had in your report from Akbar Ganji, 
who is the prominent dissident, you thought.
    He said: Iranians are viewed as discredited when they 
receive money from foreign governments. The Bush administration 
may be striving to help Iranian democrats, but any Iranian who 
seeks American dollars will not be recognized as a democrat by 
his or his fellow citizens. Of course, Iran's democratic 
movement and civil institutions need funding, but this must 
come from independent Iranian sources. Iranians themselves must 
support the transition to democracy. It cannot be presented 
like a gift. So here is our request to Congress, the request of 
dissidents I take it, to do away with any misunderstanding. We 
hope lawmakers will provide a bill that bans payment to 
individuals or groups opposing the Iranian Government. Iran's 
democratic movement does not need foreign handouts. It needs 
the moral support of the international community and the 
condemnation of the Iranian regime for its systemic violation 
of human rights.
    Would the three of you recommend that Congress pass a bill 
banning payment to individuals or groups opposing the Iranian 
Government? Anybody?
    Mr. Sadjadpour. I don't know if I would go so far as to 
pass a bill banning payment. And as I said earlier, I think 
that actually the bulk of this $75 million was not for civil 
society activists and democratic agitators. The bulk of this 
money was intended for Persian language media and the Voice of 
America, Radio Free Europe, Radio Farda.
    But I would just emphasize my earlier point that this 
Persian language media is far more objective and receives a 
much larger audience in Iran if it is perceived as objective 
news media rather than U.S. propaganda. And again, I think if 
you have Iran's leading dissidents simply saying that we don't 
want the money, it is counterproductive, it is not helpful, I 
don't see the logic in insisting on saying, no, you actually do 
need the money. We know what is better for you.
    Mr. Tierney. Thank you very much. Mr. Shays.
    Mr. Shays. I agree sometimes with my colleague from 
Maryland, but I don't like the analogy of Korea. Because the 
fact was, this administration continually is blamed for acting 
unilaterally. In North Korea they acted multilaterally because 
they wanted China and South Korea and Japan at the table, 
particularly China, to get them to respond. And they stuck to 
their guns on it. But they were always offering carrots. They 
were saying ``but meet with us collectively.'' And they did.
    What confuses me about Iran is you are asking--first of 
all, I think as a general rule you should have an Embassy in 
every country in the world: Cuba, North Korea, Iran. And it is 
not a reward. It is just you have a vehicle to do business. And 
I wish we would get out of the thought that somehow we reward 
someone by having an Embassy. If we had had an Embassy in Iraq, 
we would have known that their infrastructure was pathetic 
times 10 just being there. And half of our Embassy, by the way, 
does not include State employee officials.
    But what I wrestle with is if the Supreme Leader Khamenei 
is paranoid, he is going to be paranoid if we are aggressive, 
he is going to be paranoid if we are not aggressive. You can't 
deal with someone who is paranoid very easily in the short run. 
So I don't quite know what we win either way with this so-
called Supreme Leader.
    What I wrestle with is Europe sends its troops to 
Afghanistan, but only allows four of their countries to be 
involved in battle. You know, the tip of the spear. I have so 
little respect for Europe. Tell me why I need to respect them. 
They are dependent in large measure on Iran, and so I am stuck 
with the fact they are going to be under the thumb of Iran. And 
it seems to me the way you avoid war is you have sanctions that 
work. And these guys don't want the sanctions to work. If they 
did, they would support it universally. And then Iran would 
have Russia and China as their only two folks to do business 
with. That is kind of how I see it. So disagree or not, but 
comment.
    Mr. Katzman. I believe there are more than four European 
countries fighting in southern Afghanistan.
    Mr. Shays. That is not what I said. They are there, but 
they will not allow their troops to be involved in battle.
    Mr. Katzman. I think, again, they have a very different 
threat--I don't think they don't want the sanctions to work. I 
think they have a different threat assessment and a different 
philosophy that if we move these sanctions up more slowly and 
conduct dialog, at the same time we can get Iran to shift its 
position more effectively than if we go right to the ultimate 
full trade ban, cutoff of all credits, official credit 
guarantees, etc. If we do that, in the European view, we have 
sort of spent all our ammunition and we have nothing to 
followup with. They want to be able to say to Iran, we are 
going to keep ratcheting up. And maybe Iran will change.
    Mr. Shays. Just to quickly respond to that, then they have 
no place to do business.
    Mr. Katzman. Well, I agree with that, but I think they just 
also have a different threat--I don't think the business is 
necessarily driving. I think it is more the philosophy of how 
you get Iran to change its position rather than not wanting the 
sanctions.
    Mr. Shays. I hear you.
    Mr. Ballen. Mr. Shays, I would just comment that a missing 
actor or link in American policy has been putting forth, as I 
mentioned or testified earlier, the human rights agenda and 
talking about human rights in the positive agenda. I think if 
we more forcefully as a country talked about what was 
happening, as we did with the former Soviet Union, we engaged 
them, but we put front and center their human rights 
violations. This is a country in Iran where there are 
significant human rights violations, yet it is not part of the 
debate. It is not--it even hasn't been mentioned until right 
now, when I am bringing up the issue.
    So I think it is very, very important. Not only Dr. Katzman 
mentioned, well, we are talking about military options so we 
can impress the Europeans; I think we could impress the 
Europeans if we started talking about human rights inside Iran, 
too.
    Mr. Shays. I am going to emphasize that point. I think the 
reason the President has talked about military is he is trying 
to get China and Russia to wake up. In other words, if you 
don't want military operations, then make sanctions work. So I 
don't really think he is speaking to Iran. I think he is 
speaking to our allies.
    Mr. Ballen. Right. And what I would respectfully suggest is 
that if we also talked about, A, the positive vision of the 
future where Iran could be, and also the human rights 
violations inside Iran today, we can also speak to our allies, 
too.
    Mr. Sadjadpour. I would just argue somewhat in defense of 
the Europeans, that they have actually had a far more positive 
effect at improving the human rights situation in Iran than the 
U.S. Government has. I can tell you numerous occasions of 
friends of mine, or prominent intellectuals and dissidents who 
have been imprisoned in Tehran. Myself, I was not imprisoned, 
but my passport was taken away from me. I would have loved to 
have been able to go to the U.S. Embassy and consult with the 
U.S. Ambassador, but there is no U.S. Embassy there.
    And so Europeans have actually been quite effective on a 
lot of these human rights issues within Iran. So when it comes 
to the saber rattling intended for Russia and China, I agree it 
may be intended for Russia and China, but as I said, having 
just come back from Moscow, my concern is that this has been 
counterproductive. Because what the Russian officials and 
Chinese officials these days are obsessing about is not that 
Iran is going to get a nuclear bomb, it is that the United 
States is going to bomb Iran.
    Mr. Shays. Right. And that is my whole point.
    Mr. Sadjadpour. But this point is not impressed upon them.
    Mr. Shays. No, I want to state the point, because you are 
the one who triggered it. The whole point is they aren't 
obsessed by it; they don't seem to care. But they do seem to 
care if we would be involved militarily. And so that is a stark 
choice for the Russians and Chinese to deal with. I want to go 
on record, the last thing I want to see is us to be involved in 
a military engagement in Iran. I think it would be foolish, a 
huge mistake. But the way you avoid it is to have sanctions 
that work. I just wanted to trigger this.
    You triggered this. All of a sudden some are talking about 
how nuclear got morphed into human rights. Isn't there a danger 
that the Iranians say to the Europeans, we gave in to you on 
human rights, back off the nuclear. In other words, you got 
something from us, now back off. So I mean I think human rights 
is important, but I would put the nuclear threat above the 
human rights, frankly. Wouldn't you?
    Mr. Ballen. Well, in terms of U.S. national security, I 
think that is correct. But I think it is also very important 
for dealing with not only the regime, but the people in Iran 
and our allies around the world. That is one of the ways we 
successfully dealt with the Soviet Union during the cold war, 
and I think it was a successful model. We live in a world now 
where people do matter and their opinions do matter. And that 
has changed since the cold war. But that was one of the ways we 
were successful. We shouldn't neglect that.
    Mr. Tierney. Thank you. Mr. Van Hollen.
    Mr. Van Hollen. Thank you. I just want to respond briefly 
to my friend from Connecticut with my use of the North Korean 
analogy as a model. Because what I am suggesting is that the 
way we ended up dealing with North Korea at the end, while the 
jury is still out, clearly has been more productive than the 
way we were dealing with them at the beginning. I think there 
can be no dispute that in this administration there was a major 
difference of opinion as to how to approach North Korea. And 
John Bolton, who continues to criticize the administration to 
this day, and others in the administration were strongly 
arguing that we should not provide any sticks to North Korea 
because essentially----
    Mr. Shays. Any carrots.
    Mr. Van Hollen. Excuse me, thank you; any carrots to North 
Korea because essentially their intent was regime change in 
North Korea, at the end of the day. And the administration's 
position evolved over many years. I am not being critical of 
the fact they took the Six Party approach. What I am suggesting 
in fact is that model of engaging may be useful in Iran, where 
they have now taken the position that they refuse to talk to 
Iran about the big issues. We have had some efforts with 
respect to Iraq and conversations, but looking at what at least 
has tentatively been successful in North Korea at the end of 
the day may provide a useful model.
    And I do think it is important, because while Secretary 
Rice seems to have won the day in the end with respect to North 
Korea, clearly the much more hardline position within the 
administration with respect to any kind of conversation or 
dialog with Iran has continued to dominate and win out.
    Mr. Tierney. Thank you. I am going to take the prerogative 
of the Chair and make a comment, ask a question, and close with 
some comments. I appreciate everybody's participation.
    First comment is that, you know, I think we all respect our 
European allies, and hopefully are taking into consideration 
their thoughts and concerns as we move forward, as well as 
their recommendations. For all of this saber rattling, I have 
not seen Russia or China actually take any positive steps 
toward sanctions. I am not sure that has worked very well. So 
while we intend to get their attention, they may be moving in 
the opposite direction. They may be becoming more obstinate and 
having an adverse reaction to it.
    The question I have is how much of the difference between 
the threat assessment that the Europeans and Russia and China 
may have and that of the United States is dependent on 
somebody's perception of what the threat of Iran is to Israel? 
Am I making myself clear on that? Does anybody care to answer 
that or respond? Doctor.
    Mr. Katzman. I think it is crucial. I think it is very 
important. You know, none of those countries are front and 
center trying to broker an Arab-Israeli peace. None of them are 
close allies of Israel, as we are. And I think it is vitally 
important; that accounts for a lot of the difference.
    Mr. Tierney. Mr. Sadjadpour, you mentioned something I 
thought. What is the history with Iran originally? During the 
Shah regime, didn't they have normal relations? And how did we 
get to the point where we listen to Ahmadinejad make these 
outrageous statements? And what support is there for his 
outrageous statements?
    Mr. Sadjadpour. During the Shah's time there was 
essentially a lot of ties between Iran and Israel. There was a 
de facto--I call it a de facto Israeli Embassy in Tehran. It 
was known as kind of an Israeli consulate, but it was 
essentially operating like an Embassy. And part of the 
resentment that this current crop of leadership have in Tehran, 
apart from their ideological opposition to Israel as a usurper 
of Muslim lands, but part of the enmity which they have toward 
Israel, I would argue, is this--their experiences during the 
time of the Shah. Many of them, the current leadership, 
including the Supreme Leader and former President Hashemi 
Rafsanjani, were in prison during the time of the Shah and 
claim to have been tortured by the Shah's secret police, Savak, 
which was allegedly trained by Israeli intelligence, Mossad. So 
I think that is one of the roots of their enmity.
    But I think it is also quite ideological. Many of them cut 
their teeth as revolutionaries on the Palestinian cause dating 
back to the 1960's.
    Now, getting back to Ahmadinejad's rhetoric and the 
Holocaust and denying Israel, etc., this doesn't make much 
sense in the domestic Iranian context, because Iranians are not 
Arabs. The Palestinian issue doesn't resonate among Iran as it 
does among Arabs. There is not land or border disputes with 
Israel. There is a long history of tolerance vis-a-vis the 
Jewish people in Iran. There are still 25,000 Jews living in 
Iran, the largest Jewish community in the Middle East outside 
of Israel.
    Why Ahmadinejad is taking this approach I think is much 
more for the broader Arab and Muslim street; and what has been, 
since the inception of the 1979 revolution, Iran has always 
aspired to be the vanguard of the Arab and Muslim world. And 
this type of rhetoric sits very well in Arab and Muslim 
streets. And this is why we see a lot of the Arab street right 
now supporting Iran's positions, because they are quite 
sympathetic to the fact that the Iranian Government stands up 
to Israel and stands up to the United States.
    Mr. Tierney. If there was a preemptive bombing in Iran, or 
significant preemptive bombings in Iran by Israel or the United 
States, or some perception they were working in unison for that 
to happen, how would that change the attitudes of Iranians?
    Mr. Sadjadpour. Well, even the word ``preemptive'' I think 
is somewhat misleading because it implies that Iran is set to 
bomb the United States, and therefore we have to take 
preemptive action. But I think----
    Mr. Tierney. I guess by this administration's theory they 
are preempting the nuclear outflow all the way back to 
knowledge.
    Mr. Sadjadpour. In my mind, there is a lot of time for 
diplomacy. When it comes to Iran, we are dealing in shades of 
gray, and it is a very complex issue. But when it comes to the 
prospect of bombing Iran, I think unequivocally it is a bad 
idea. I don't think of any potential redeeming qualities. And 
not only within Iran internally, but also on these broader 
range of issues which I mentioned: the future of Iraq, nuclear 
proliferation, energy security, Afghanistan, Arab-Israeli peace 
and terrorism; it is going to exacerbate all these issues by 
bombing Iran.
    Mr. Tierney. Thank you. I want to thank all of the 
witnesses here today, as well as my colleagues here for what I 
think was a very informing conversation. It is important we 
understand the Iranian public's opinion and attitudes for our 
own long-term national interests in the region.
    We have many economic and security issues. I think Mr. 
Sadjadpour just summed them up: Israel, Afghanistan, energy 
needs, nonproliferation, terrorism. All of those, it is 
important that we, in my opinion at least, start engaging with 
the Iranians. And hopefully, that engagement is going to be 
important, going forward much longer than any lasting arguments 
between the Bush administration and Ahmadinejad. And I think we 
have to reach out and do that.
    You helped us understand the complicated situation. 
Hopefully, our further hearings on this matter will give us 
more depth on that. So thank you very, very much for your 
testimony and your time here this morning.
    Mr. Shays I think would also like to add his appreciation.
    Mr. Shays. First, I thank you, Mr. Chairman, for having 
this hearing on Iran. I think it is very important. I am 
looking forward to the others. And I frankly learn more from 
the outside experts sometimes than I do from our own government 
officials, because you all spend a heck of a long time thinking 
about this issue, but you also have I think a sense of freedom 
that sometimes others may not have. So a very, very interesting 
session, and thank you. And thank you again, Mr. Chairman.
    Mr. Tierney. Thank you very much. This hearing is 
adjourned.
    [Whereupon, at 1:01 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
